<html>
<title> - DEVELOPMENT PROJECTS IN TIBETAN AREAS OF CHINA: ARTICULATING CLEAR GOALS AND ACHIEVING SUSTAINABLE RESULTS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





  DEVELOPMENT PROJECTS IN TIBETAN AREAS OF CHINA: ARTICULATING CLEAR 
                GOALS AND ACHIEVING SUSTAINABLE RESULTS

=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 19, 2004

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov


                                 ______

93-221              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

JIM LEACH, Iowa, Chairman            CHUCK HAGEL, Nebraska, Co-Chairman
DOUG BEREUTER, Nebraska              CRAIG THOMAS, Wyoming
DAVID DREIER, California             SAM BROWNBACK, Kansas
FRANK WOLF, Virginia                 PAT ROBERTS, Kansas
JOE PITTS, Pennsylvania              GORDON SMITH, Oregon
SANDER LEVIN, Michigan               MAX BAUCUS, Montana
MARCY KAPTUR, Ohio                   CARL LEVIN, Michigan
SHERROD BROWN, Ohio                  DIANNE FEINSTEIN, California
DAVID WU, Oregon                     BYRON DORGAN, North Dakota

                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                 GRANT ALDONAS, Department of Commerce
                   LORNE CRANER, Department of State
                    JAMES KELLY, Department of State
                  STEPHEN J. LAW, Department of Labor

                      John Foarde, Staff Director

                  David Dorman, Deputy Staff Director

                                  (ii)



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Miller, Daniel, agricultural officer, U.S. Agency for 
  International Development (USAID), Washington, DC..............     2
Goldstein, Melvyn, John Reynold Harkness Professor of 
  Anthropology, Case Western Reserve University, Cleveland, OH...     6
Samen, Arlene M., founder and executive director, One H.E.A.R.T., 
  nurse practitioner, Maternal Fetal Medicine Division, School of 
  Medicine, University of Utah, Salt Lake City, UT...............     9

                                APPENDIX
                          Prepared Statements

Miller, Daniel...................................................    28
Goldstein, Melvyn C..............................................    31
Samen, Arlene M..................................................    33

                       Submissions for the Record

``Poverty Among Tibetan Nomads: Profiles of Poverty and 
  Strategies for Poverty Reduction and Sustainable Development,'' 
  submitted by Daniel Miller.....................................    35
``Development and Change in Rural Tibet,'' by Melvyn C. 
  Goldstein, Ben Jiao, Cynthia M. Beall, and Phuntsog Tsering, 
  submitted by Melvyn C. Goldstein...............................    54

 
  DEVELOPMENT PROJECTS IN TIBETAN AREAS OF CHINA: ARTICULATING CLEAR 
                GOALS AND ACHIEVING SUSTAINABLE RESULTS

                              ----------                              


                         FRIDAY, MARCH 19, 2004

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 2:30 
p.m., in room 2255, Rayburn House Office building, John Foarde 
(staff director) presiding.
    Also present: David Dorman, deputy staff director; Andrea 
Yaffe, Office of Senator Carl Levin; Michael Schiffer, Office 
of Senator Dianne Feinstein; Joel McFadden, Office of Senator 
Dianne Feinstein; Susan R. Weld, general counsel; Steve 
Marshall, senior advisor; Selene Ko, chief counsel for trade 
and commercial law; and Carl Minzner, senior counsel.
    Mr. Foarde. Good afternoon, everyone. My name is John 
Foarde. I am the staff director of the Congressional-Executive 
Commission on China. Welcome to the resumption of our issues 
roundtable series. We have been away since late October, but 
are back today with a very important program.
    On behalf of Congressman Jim Leach, our chairman, and 
Senator Chuck Hagel, our co-chairman, and all the members of 
the Congressional-Executive Commission on China, I would like 
to welcome our three panelists and all of you who are in the 
audience 
attending today.
    This is our first roundtable for a while, but we have a 
couple coming up which I wanted to alert you to. In one case, 
the announcement has gone out already. In another case, it will 
be out later this afternoon.
    We will be meeting again next week, on Friday, March 26, 
from 10 to 11:30 a.m., here in this room, 2255 Rayburn, for a 
session on WTO implementation and compliance in the context of 
agricultural standards and sanitary and phytosanitary issues. 
On April 2, 2004, also a Friday, in this very room at 10:30 
a.m., we will meet to examine issues relating to commercial 
rule of law development in China, and an announcement will be 
going out about that session and the panel later today.
    We are here today to examine a very particular set of 
issues relating to Tibet. The Tibet problem is a very big issue 
for the United States and is something that is always on the 
bilateral agenda between our two countries. The Tibet issue has 
many dimensions. It has a political dimension, an aid 
dimension, a strategic dimension, a cultural dimension. But 
today we are interested in looking at the development 
dimension, and particularly development projects in the Tibetan 
Autonomous Region [TAR] and Tibetan areas of China.
    To help us understand what the issues are and the long and 
the short of these questions today, we have three extremely 
distinguished panelists. All three have long experience in 
Tibet. I am going to introduce them briefly, all three of them, 
and then say a few words before each of them speaks.
    From the U.S. Agency for International Development [USAID], 
is Dan Miller. Dan is an old friend of all of us on the 
Commission staff and someone from whom we have learned a great 
deal about Tibet over the last couple of years since we got 
under way.
    Our second speaker will be Dr. Melvyn Goldstein from Case 
Western Reserve University in Cleveland. Dr. Goldstein's 
writings have been very helpful to me, personally, and I think 
to a great many of us here on the panel in understanding 
Tibetan history, Tibetan culture, and the issues that are 
involved in contemporary Tibet.
    We are particularly pleased to bring Arlene Samen from One 
H.E.A.R.T. here to Washington, which I understand is your home 
town, to help us understand health projects and related issues.
    So without further ado, let me ask Dan Miller to say a few 
words. Dan is currently an agricultural officer with the U.S. 
Agency for International Development. He has been working in 
Tibetan areas of China for 16 years. He has worked for 
international organizations and NGOs in Tibetan areas of China, 
including the World Bank, the Canadian International 
Development Agency, the Wildlife Conservation Society, the 
Nature Conservancy, the Mountain Institute, and the Bridge 
Fund.
    Dan, Mel, and Arlene, I will say that our rules are 
relatively informal, but fairly inflexible. That is, we will 
give each of you 10 minutes to speak. After 8 minutes, I will 
let you know that you have 2 minutes left. Then when the 10 
minutes have elapsed, I will have to ask you to end it there.
    Inevitably, there are many points that you want to make 
that you do not have time for in your main presentation, and we 
will try to come back to those points during the question and 
answer session.
    After each of you has made a presentation, we will give 
everyone here a chance to ask questions for 5 minutes each 
until we run out of questions, or until 90 minutes have 
elapsed, whichever is first.
    So, Dan, please, go ahead.

 STATEMENT OF DANIEL MILLER, AGRICULTURAL OFFICER, U.S. AGENCY 
         FOR INTERNATIONAL DEVELOPMENT, WASHINGTON, DC

    Mr. Miller. Thank you, Mr. Foarde.
    I am grateful to the Congressional-Executive Commission on 
China for giving me the opportunity to speak today. This 
roundtable on development projects in the Tibetan areas of 
China is a very important topic. I am especially pleased with 
the subtitle of this roundtable on articulating clear goals and 
achieving sustainable results. As a development specialist, I 
believe that development efforts in the Tibetan areas of China, 
in order to be successful, need to give much greater attention 
to formulating explicit goals and objectives and ensuring that 
results are attained and that they are sustained.
    In the short time I have to talk, I would like to focus on 
agricultural development, and, more specifically, on livestock 
development for Tibetan nomads and farmers, which also happens 
to be my area of expertise.
    In the last 20 years, China has achieved remarkable 
agricultural and rural growth, greatly reduced poverty, and 
addressed many environment and natural resource degradation 
problems. In many of the Tibetan areas, however, broad-based 
rural economic growth has not been very significant. Poverty is 
still pervasive. However, not all Tibetans are poor. There are 
many nomads and some farmers in certain areas, especially where 
the environment is more favorable, that would probably not be 
considered poor, although social services and access to markets 
may still be limited.
    To date, most Tibetan farmers and nomads have not 
participated fully in the assessment, planning, and 
implementation of development programs and the policies that 
affect their lives. Government development programs have 
generally taken a top-down approach and, despite many of their 
good intentions, have often been hampered because Tibetan 
farmers and nomads were not involved in both the design and 
implementation of activities. Many of the government's efforts 
have also been not as effective because of faulty assumptions 
that have been made about poverty and Tibetans' traditional 
agricultural and livestock production practices.
    I have been amazed at the transformations that have been 
taking place in the Tibetan areas just in the last few years. 
In the nomad areas, nomads are being settled down. Range lands 
are being privatized and fenced. There has been incredible 
infrastructural development that has taken place in prefectural 
and county towns, even in the nomad areas. The Tibetan areas 
are certainly a dynamic development environment, but how much 
the Tibetan farmers and nomads are benefiting from these 
developments still needs much better analysis.
    Rural development experience internationally and elsewhere 
in China demonstrates the benefits of adopting an integrated 
approach to rural development and to attacking poverty, an 
approach that involves both social and economic development, as 
well as environment management. An emphasis on economic growth 
within a community-based integrated development project or 
model has the greatest promise for a multiplier effect in 
reducing poverty in Tibetan areas and improving the lives of 
Tibetans.
    Reducing poverty and promoting sustainable development 
requires expanding the income base for Tibetans. Because much 
of agriculture is dependent on livestock, improvements in 
livestock production and animal husbandry practices hold the 
potential for stimulating economic growth. Yet when you look at 
the types of development projects that are being implemented by 
many American-based NGOs in Tibetan areas, there is 
surprisingly little attention being paid to livestock 
development, or at least not in a strategic manner focusing on 
improving production and income.
    In my opinion, the key issues for sustainable development 
in the Tibetan pastoral areas are widespread poverty, range 
land degradation, unsustainable livestock production practices, 
poor market development, weak community participation, and lack 
of integration in addressing all of these problems. The 
development challenge now is determining how to target funding 
better to address these issues and to ensure that resources 
allocated for development and poverty reduction actually 
reaches the Tibetan farmers and nomads.
    I would now like to go back to the subtitle of this 
roundtable, articulating clear goals and achieving sustainable 
results. Having been involved in rural development for many 
years, I firmly believe that clear objectives and strong 
commitment is what drives successful projects. There are 
numerous U.S.-based NGOs working in Tibetan areas of China, a 
number of them with funding from the U.S. Government--the 
American NGOs, that is. NGOs are widely perceived by the public 
as more effective than larger donors at reaching local people. 
Typically, NGOs operate small-scale community-based projects. 
While building schools and health clinics are certainly 
beneficial to the Tibetan people, real economic growth is not 
going to take place without addressing the agriculture and 
livestock sectors.
    Having worked with both NGOs and larger multilateral and 
bilateral development organizations, I believe that the 
development planning process that many of the larger 
development organizations embrace, which are tools and 
procedures such as results-based management and logical 
frameworks, are a very valuable tool and could help NGOs 
working in Tibet to be more strategic and effective in their 
work. These tools provide a logical, step-wise framework for 
designing development projects and for organizing the 
implementation of activities and for reporting on results.
    For development to be effective, what is important is that 
the proper analysis is carried out, and this also includes 
adopting a participatory approach so that the local people are 
involved; that outputs and activities for projects are clearly 
defined; that performance indicators are spelled out; and that 
monitoring and evaluation systems are designed.
    Roles and responsibilities of the different actors in 
development also need to be defined and a work plan schedule 
developed. Since funding is often limited, development 
organizations also need to focus on those activities that will 
provide the greatest return on investment, which often means 
that economic analysis and cost benefit analysis is going to be 
necessary.
    Evaluation of project performance in order to judge its 
effectiveness is also critical, especially if U.S. taxpayer 
money is being used.
    The U.S. Government agency that I work for, USAID, has 
considerable experience and lessons learned about pastoral 
development that I think is relevant to Tibetan nomadic areas. 
For example, USAID's Global Livestock Collaborative Research 
Support Program has worked with pastoralists in South America, 
East Africa, and Central Asia. Many of the approaches from 
these activities could be applied to Tibet. USAID has also been 
involved with nomads in Mongolia, working with Mongolian 
herders to form herder groups and to develop range land 
management plans, and working with them to improve the business 
of herding. Many of these activities are also relevant to 
development in Tibetan areas. Many other bilateral and 
multilateral organizations have range livestock development 
projects in the Inner Mongolia, Gansu, and Xinjiang parts of 
China, and there are also valuable lessons learned from these 
projects on organizing pastoral development in Tibetan areas.
    I think that American NGOs and other organizations would be 
wise to learn about these activities and to see how they can 
adapt many of these lessons learned and the experiences to 
working with Tibetans.
    The crucial problem now facing agriculture and livestock 
development in Tibetan areas appears to be organizational and 
behavioral rather than technical. Therefore, analysis of the 
socioeconomic processes at work are a key challenge.
    To conclude, let me say that the challenges facing 
development in Tibetan areas are considerable. Opportunities do 
exist, however, for improving the livelihoods of Tibetans. With 
an area almost three times the size of Texas, there is room for 
many more American organizations and American people to be 
working in Tibetan areas.
    Different groups bring diverse ideas, approaches, and 
expertise, which is beneficial. However, more attention will 
need to be given to making sure development efforts articulate 
clear goals, define their objectives and outputs, and that the 
impacts are measurable. There are no simple solutions. 
Activities will need to be undertaken at many levels, including 
at the central policy level, at the university and research 
level, at the county and township level, and at the nomad and 
farmer level. Promoting more sustainable development will also 
require policies and approaches that integrate ecological 
principles regulating ecosystem functions with the economic 
principles governing agricultural and livestock production and 
general economic development processes.
    If this guidance is followed and if more financial 
resources can be directed to Tibetan areas, Tibetan livelihoods 
can improve, while sustaining one of the world's most 
significant ecosystems and a rich cultural heritage.
    Thank you.
    [The prepared statement of Mr. Miller appears in the 
appendix.]
    Mr. Foarde. Dan, thank you very much. You are remarkably 
disciplined, since the buzzer was just about to sound. So, 
congratulations.
    We would like to go, next, to Professor Goldstein. Melvyn 
C. Goldstein is the John Reynold Harkness Professor of 
Anthropology at Case Western Reserve University in Cleveland, 
OH. He also directs the University's Center for Research on 
Tibet.
    Dr. Goldstein is currently conducting research in Tibet and 
Mongolia. His earlier research has focused on Tibetan refugees 
in India, nomads in Mongolia, and cultural ecology in the 
Himalayas and Tibet.
    He has authored or co-authored more than 80 articles and 
books on Tibet, and he has not been here in Washington in far 
too long. Welcome, Mel Goldstein. Thank you very much.

    STATEMENT OF MELVYN C. GOLDSTEIN, JOHN REYNOLD HARKNESS 
PROFESSOR OF ANTHROPOLOGY, CASE WESTERN RESERVE UNIVERSITY AND 
  DIRECTOR OF THE UNIVERSITY'S CENTER FOR RESEARCH ON TIBET, 
                         CLEVELAND, OH

    Mr. Goldstein. Thanks very much, Mr. Foarde.
    Rural Tibet has experienced a dramatic change in the past 
25 years. Around 1980, the system of communal production in 
Tibet was replaced by the current quasi-market system called 
the ``Responsibility System.'' In almost all areas, the 
commune's land and animals were divided among its members on a 
one-time basis. All individuals alive on the day of division 
got an equal share, but 
anyone born after that did not get anything. From then on, the 
household became the basic unit of production, as it had been 
in traditional Tibet, and a new economic era began.
    Although I am sure you all have heard or read depictions of 
Tibet as exceptionally impoverished, and to an extent it 
certainly is, it is also clear that in the two decades since 
1980 the standard of living in rural Tibet has improved a great 
deal. Tibet has a long way to go, but it is important to 
understand how far it has come and what problems it faces 
moving forward.
    Much of what I am going to say is based on my own 
longitudinal research in rural Tibet that began in 1986, and in 
particular from a large field study of 13 farming villages in 3 
counties that began in 1998.
    On the positive side, almost all the rural farmers we 
studied had a favorable opinion of the Responsibility System. 
Ninety-four percent indicated that their livelihood improved 
since the de-collectivization in 1980. Seventy-seven percent 
said they produced enough barley for their family's food needs, 
and 67 percent said that they had one or more years worth of 
barley stored in reserve.
    Similarly, the three main high-quality or luxury 
traditional foods, locally brewed barley beer, butter, and 
meat, were all widely consumed. Three-quarters of the 
households said they now make and drink beer regularly rather 
than just on special occasions, and the majority of families 
reported that they ate meat or fat either daily or several 
times a week. Ninety-one percent reported that they drank 
butter tea every day.
    What accounts for these gains? First and foremost, there is 
a new economic framework that allowed households to keep the 
fruits of their labor. In farming, this allowed households to 
intensify the care with which they planted their own fields and 
resulted in most households quickly experiencing increases in 
production. These increased yields were further amplified by 
the government's new policy of exempting rural Tibetans from 
taxes.
    This effect was even more impressive with respect to 
domestic animals, which increased 82 percent since de-
collectivization, and more if I had counted chickens and pigs. 
Moreover, the milking animals that provide the essential milk 
that every rural household needs to make butter for Tibetan tea 
have increased an amazing 668 percent in these 20 years.
    Finally, the new economic structure also has allowed an 
encouraged rural households to engage in non-farm income-
generating 
activities, and, as we shall see, many have done so.
    But I do not want to paint an overly rosy view of rural 
Tibet. Despite these improvements, Tibetans clearly have a long 
way to go vis-a-vis inland China. For example, as of 2002, none 
of the 13 villages we studied had running water in houses, and 
only the village immediately adjacent to a county seat had a 
water tap and electricity. None of the areas had improved dirt 
roads, let alone paved roads.
    Critically, there is still a great deal of rural poverty. 
Despite starting equally in 1980, 14 percent of households were 
poor, in the sense that they did not have enough grain, either 
from their own fields, or bought through earned income, and 
another 28 percent of households were having a difficult time 
meeting their basic subsistence needs. Moreover, in the poorest 
areas we studied, about 30 percent of the households were poor, 
as I defined it. Thus, while progress in rural Tibet in some 
ways has been impressive, many families have faltered and are 
in dire need of assistance.
    The situation in Tibet, however, is not static and there 
are fundamental changes going on that need to be mentioned, 
since these raise serious questions about whether the overall 
increases of the past 20 years can be sustained, let alone 
improved, over, say, the next 20 years.
    First, and more critical, is a serious decline in per 
capita land holdings. As a result of population growth and 
fixed land size, there has been an average decline of 20 
percent in per capita land holdings, and this decline does not 
take into account land lost to home building sites, floods, 
roads, et cetera. Since Tibet's rural population will continue 
to grow in the next decade, this process of 
decline will continue.
    Second, the cost of living is increasing. In addition to 
general inflation, the price of key products, such as chemical 
fertilizers, has increased substantially, while at the same 
time there has been a decrease in government subsidies and an 
increase in local taxes. This combination is also likely to be 
exacerbated in the years ahead.
    Compensating for this by trying to increase yields will not 
be easy because farmers are already using high levels of 
chemical fertilizers and improved seeds.
    Similarly, it is unlikely that the value of Tibetan crops 
will increase and compensate for the changes. The market for 
Tibetan crops is limited and declining. Tibetan barley and 
wheat have no export potential outside of Tibet because the 
Chinese do not eat barley, and find Tibetan wheat too coarse. 
Even in Tibet, the increasing consumption by Tibetans of rice, 
vegetables and imported white flour means that they are 
consuming less barley and Tibetan wheat, and this trajectory is 
also likely to increase.
    Tibetan farmers are acutely aware of these changes and 
challenges and they are trying to compensate in a variety of 
ways. For example, by contracting traditional fraternal 
polyandrous marriages in which two or more brothers take a 
wife, since this concentrates labor in the household and avoids 
dividing the land 
between the brothers. They are also increasingly using 
contraception to have fewer children, and, most critically, are 
actively taking steps to secure non-farm income.
    It is clear to rural villagers and their leaders that, 
without a source of non-farm income, households cannot move 
from basic subsistence to a good standard of living. In the 
future, it may not even be possible for households that are now 
self-sufficient from their fields to remain so if they do not 
have some modicum of non-farm income.
    Not surprisingly, in 1988, 44 percent of males between ages 
20 and 34 were engaged in migrant labor for part of the year, 
and 49 percent of all households had at least one member so 
engaged. Most of these worked as manual laborers on 
construction projects. Moreover, it is significant to note that 
only 24 percent of households in the poorest areas were engaged 
in non-farm labor.
    With respect to such work, we found widespread frustration 
and anger in the villages about the difficulties villagers face 
in finding jobs. Villagers commonly complained that there are 
not enough jobs for them and that, because their skill levels 
are low, most of the jobs they find pay poorly. The villagers 
overwhelmingly lay the blame for this on the unrestricted 
influx of non-Tibetan migrant 
laborers.
    Rural Tibetans now find themselves in competition for 
construction jobs with large numbers of more skilled and 
experienced Chinese workers, and given the current policy, this 
competition will certainly increase. How Tibetans will fare in 
the future, therefore, is less clear. There are some positive 
signs, but it is hard to be very optimistic. What is really 
needed is a change in government policy that will give much 
greater priority to securing jobs for Tibetans, perhaps through 
a large-scale system of set-aside contracts for them over some 
period of time.
    However, if the current policy continues, rural Tibetans 
will have to compete as best they can, and it is here that 
outside development organizations can, and should, play a 
helpful role. There are many things that rural communities 
need, but I believe that the greatest impact will come from 
those programs that address what rural Tibetans themselves 
primarily want and need, namely, assistance in generating non-
farm income. Whether the life of rural Tibetans will improve in 
the next decade depends on many complicated factors occurring 
at the macro level. But it is clear to me that foreign 
development programs can make a useful difference in the lives 
of rural Tibetans, although, given the economic and political 
problems in Tibet, it will not be easy.
    Thank you.
    [The prepared statement of Mr. Goldstein appears in the 
appendix.]
    Mr. Foarde. You have given us lots of good ideas to think 
about and to come back to you in the question and answer 
session. Thank you very much.
    We would like to continue now with Ms. Arlene Samen. Arlene 
is the founder and executive director of One H.E.A.R.T, the 
latter acronym standing for Health, Education, and Research, 
Tibet. She is a nurse practitioner in Maternal-Fetal Medicine 
at the University of Utah.
    Arlene has worked with international health projects since 
1985 and has spent the last 6 years in Tibet establishing a 
midwife training and community-based life-saving skills program 
in Medrogongkar County, near Lhasa.
    Arlene, welcome back to Washington, your home. Thank you 
for being here.

STATEMENT OF ARLENE SAMEN, FOUNDER AND EXECUTIVE DIRECTOR, ONE 
H.E.A.R.T. AND A NURSE PRACTITIONER IN MATERNAL-FETAL MEDICINE 
DIVISION, SCHOOL OF MEDICINE, THE UNIVERSITY OF UTAH, SALT LAKE 
                            CITY, UT

    Ms. Samen. Tashi delek. I would like to thank the CECC for 
inviting me to share with you One H.E.A.R.T.'s work in Tibet.
    Last October, while working at 15,000 feet in Medrogongkar 
County, I was suddenly called to help a pregnant woman in a 
remote village. She had been in labor for 4 long days. I found 
her alone in a cold, dark shed while her family huddled around 
a warm fire in the kitchen. Four hours later, the exhausted 
woman delivered a healthy baby boy into my bare hands. In the 
same county, this scene is repeated daily. Tragically, just a 
few days earlier, another young woman bled to death during 
childbirth.
    Like other cultures, a Tibetan mother's death is 
devastating to her family, for it often threatens the health of 
her children and impacts the family for generations. The mother 
is the thread that holds the family together. When a Tibetan 
mother dies, her surviving children are 3 to 10 times more 
likely to die within 2 years. When a Tibetan mother dies, her 
surviving children are more likely to die young, and less 
likely to attend school or complete their education.
    Many Tibetans believe that a mother's death during 
childbirth is ominous, a sign of bad spirits that bring 
misfortune to her family and her community. Saving the lives of 
Tibetan women and their children is of the utmost urgency for 
the survival of the Tibetan culture. One H.E.A.R.T.'s mission 
is to work with Tibetans to improve the circumstances of 
childbirth and maternal and newborn survival on the Tibetan 
Plateau.
    Tibetan society is one of the few in the world in which 
there is no tradition of trained midwives who facilitate the 
delivery process. Poor nutrition and the lack of trained health 
personnel and emergency services combine to place Tibetan women 
and infants at high risk for labor-related deaths. The vast 
majority of births take place at high altitude in a cold 
environment and without access to electricity or health care. 
In spite of active campaigns by the Chinese Government to 
encourage women to deliver in a medical facility, more than 85 
percent of Tibetan women deliver at home. Most 
babies are delivered with only the help of the mother or the 
mother-in-law of the pregnant woman, and their only assistance 
is the cutting of the cord. Amazingly, many Tibetan women 
deliver their babies completely alone.
    It is believed that Tibet has one of the highest newborn 
and infant mortality rates in the world. Tibetan women are 300 
times more likely to die than American women from various 
pregnancy and delivery complications. Post-partum hemorrhage is 
the leading cause of death. Likewise, babies are far more 
likely to die in Tibet than anywhere else in the world. We 
believe that most of these deaths are preventable with minimal 
technology and simple interventions.
    In 1998, a group of maternal and child experts founded One 
H.E.A.R.T. in an effort to address maternal and newborn death 
in Tibet. We are a 501(c)(3) organization based in the Maternal 
Fetal Medicine Division of the University of Utah's School of 
Medicine.
    In the summer of 2000, One H.E.A.R.T., in collaboration 
with the Trace Foundation and the Netherlands Red Cross, 
provided the first skilled birth attendant course in Lhasa 
Prefecture. Since that time, we have focused our attention on 
Medrogongkar County. According to the Lhasa Health Bureau 
records, Medrogongkar County has the highest reported maternal 
and newborn death rates in the Lhasa Prefecture. An estimated 
75 percent of stillbirths and 30 to 40 percent of infant deaths 
can be avoided with adequate nutrition, prenatal and skilled 
delivery, and post-delivery care for mothers. Medrogongkar, 
because of its close proximity to Lhasa, provides an ideal 
setting for training, monitoring, and evaluating these 
outcomes.
    Our midwifery course is now an annual event and is being 
taught entirely by our Tibetan colleagues with clinical 
supervision by Carolyn Bell, a midwifery specialist. Our close 
working relationship with our Tibetan staff and partners and 
the Chinese health officials is helping to build a successful 
and sustainable infrastructure.
    In January 2000, the University of Utah received a 5-year 
grant from the NIH NICHD. Under the guidance of principal 
investigators Dr. Michael Varner and Dr. Suellen Miller, and 
anthropologists Dr. Vincanne Adam and Dr. Sienna Craig, we 
developed the infrastructure for clinical research in Tibet and 
are now preparing to conduct clinical trials of centuries-old 
Tibetan medicine. Tibetans believe that this traditional 
medicine may help to prevent post-partum hemorrhage.
    We are also conducting ethnographic surveys which have been 
extremely valuable for both this research project and our 
midwife training programs. Hundreds of village women have been 
interviewed about their cultural beliefs about childbirth. One 
H.E.A.R.T. works within these Tibetan cultural beliefs and 
practices in not only identifying those behaviors that may be 
harmful, but also determining which beliefs and practices can 
help us to develop and implement culturally appropriate and 
sensitive health care interventions.
    In 2002, One H.E.A.R.T. formed a committee of foreign and 
Tibetan experts to address the difficult health problems facing 
the Tibetan families surrounding childbirth. The team includes 
physicians, midwives, and doctors from the Tibetan traditional 
medicine hospital in Mentzikhang, and the biomedical hospitals 
in Lhasa, as well as representatives from the Ministry of 
Health. The team 
discussed new ways to focus its collective expertise in a 
capacity-building effort in the TAR. Out of this group, the 
Curriculum and Research Development Committee was formed and 
they have taken a leadership role in directing these efforts, 
helping to develop research protocols for designing and 
teaching curriculums. One H.E.A.R.T.'s work with this committee 
is ongoing and, as time and training progresses, we anticipate 
that the Tibetans will assume more and more responsibility for 
these programs.
    During the fall of 2002, One H.E.A.R.T. gained permission 
from the Lhasa Health Bureau to review and analyze death 
records for infants and children in Medrogongkar County. It is 
clear that there are significant challenges even collecting 
maternal and child health data in such remote and inaccessible 
villages as those found in Tibet. The results confirmed 
previous observations and also highlighted the main causes of 
death. The single main cause of death in Tibetan children is 
death related to childbirth. From 1997 to 2002, 154 of the 339 
deaths occurred on the day of birth and were charted as 
``breathlessness.'' Subsequently, Drs. Bernhard Fassl and Reini 
Jensen interviewed over 90 families who had one or more babies 
die at birth. This data helped us to analyze the causes of 
newborn breathlessness and stillbirth, and understand the 
causes and events that led to these deaths. The three main 
causes of breathlessness appear to be absence of trained birth 
attendants, inadequate management of babies who are not 
breathing, and insufficient protection from hypothermia.
    Along with our Tibetan partners from the Health Bureau, One 
H.E.A.R.T. is developing interventions that are both culturally 
acceptable and self-sustainable, and we are implementing them 
in our training programs and public health outreach messages.
    In April of this year, through funding from the Citizen 
Exchange Program of the U.S. State Department's Bureau of 
Education and Cultural Affairs and One H.E.A.R.T., six Tibetan 
doctors and health workers are coming to the United States for 
a 1-month medical training. This experience not only develops 
their medical skills, but, upon their return to Tibet, they can 
pass on this information to their fellow health workers.
    As you can see, we face many challenges in the Tibet 
autonomous region. At times, our task seems daunting. However, 
with the passionate commitment of our staff and volunteers, and 
with the continued funding from the U.S. Government, private 
corporations, foundations, and individual donors, One 
H.E.A.R.T. is making a difference in Tibet one birth at a time.
    Thank you for your time.
    [The prepared statement of Ms. Samen appears in the 
appendix.]
    Mr. Foarde. Thank you very much, Arlene, for an extremely 
interesting presentation.
    I am going to let our three speakers catch their breath for 
just a moment before we go to the question and answer session 
and just remind the members of the audience that you can find 
the written statements from each of our panelists on our 
website at www.cecc.gov. In a few weeks, we will have the full 
transcript of today's session up on the website, and you can 
also find the complete transcripts and statements from 
previous, and future, roundtables and hearings on our site as 
well.
    Let us move, then, to our question and answer session. 
Normally, we give each of the staff panelists up here 5 minutes 
to ask a question and hear the answer, and then we will move on 
to the next person until we have gone through at least a round 
or two, or until 4 o'clock comes, whichever comes first. You 
all were so remarkably disciplined that we will have plenty of 
time for this part of the program, which I think is the most 
interesting and most important.
    So, let me get started. I know that we are going to have a 
question or two about what the United States has been doing in 
development programs in Tibet, but I wanted to preempt just a 
little bit and see, beginning with Dan Miller, if you would not 
comment a little bit on what other countries are doing. I think 
all of you have had experience either cooperating with other 
countries outside the United States on development projects in 
Tibet or evaluating or seeing them. So, if you would offer some 
comments on the level of effort, whether they are evaluating 
themselves in the types of ways that you thought U.S. programs 
should, et cetera, I think that would be very useful for us.
    Mr. Miller. Yes. I know specifically that the Canadian 
International Development Agency [CIDA] has a project in the 
Tibet Autonomous Region, because I was involved in the 
preparation of that project, which is a rural development 
program focusing on agriculture and livestock, as well as some 
health activities. In terms of financial commitment, I am not 
certain. Maybe it is on the order of $1 or $2 million U.S. 
dollars. But, again, having gone through this preparation with 
CIDA, their standard procedure for a results-based management 
type of approach, an integrated approach, is fairly narrowly 
focused in just a couple of areas.
    I am aware that the New Zealand Government has been working 
in Tibetan areas in northwestern Yunnan Province; the 
Australian Government in the TAR, with health and drinking 
water, and also in western Sichuan Province Tibetan areas. 
Those are some of the larger bilateral projects that I am aware 
of.
    Mr. Foarde. How do they compare in dollar amounts, roughly, 
to what the United States is doing?
    Mr. Miller. Probably about the same. I mean, if you look at 
their entire program, probably about the same as ours. New 
Zealand, probably much less. I think right now we are going to 
be at about, this next year, close to $3 million or so. So, 
roughly the same.
    Mr. Foarde. Mel, any comment on that question?
    Mr. Goldstein. I really do not. I do not have that much to 
add to it. I should say that I have found that what Dan said is 
exactly right. We need more evaluation built into these funding 
programs. I worked for the EU once in Qinghai Province and I 
could not even get permission to distribute my own report 
because it was classified. The people who wanted it had to 
contact the EU to get permission.
    Mr. Foarde. Could we clarify, classified by the EU, by the 
Chinese, or both?
    Mr. Goldstein The EU.
    Mr. Foarde. By the EU.
    Mr. Goldstein Yes.
    Mr. Foarde. Thank you.
    Mr. Goldstein Too sensitive, all of these. Although I do 
not think it was. The point is that as an academic, it was not 
available. If I wanted to study what is being done in 
development in Tibet, it is not published. Whatever evaluations 
are done are done in-house, there is no way to get access. 
There are no outside groups who have been hired to examine 
these projects. So, it is hard to know if they are effective or 
just pushing money through.
    I think what Dan says, that the United States should try to 
take a more innovative role and set aside a small part of these 
millions of dollars for independent people to go out and 
systematically evaluate efficacy. That would be a useful step 
forward, I think, for all of development in Tibet.
    Mr. Foarde. Thank you.
    Arlene, comments?
    Ms. Samen. I would agree with both Dan and Mel. The United 
States has, I think, given relatively low amounts of money 
compared to others. The AUSAID, who are coming in, I have 
heard, somewhere between 7 and 17 million Australian dollars.
    There has not been a lot of collaboration between them and 
NGOs. I think that if there were more collaboration and more 
systems set up for infrastructure and evaluation, that that 
could be extremely helpful, because there is no way to 
evaluate, really, what has been done.
    In my particular area, in maternal health, we hear that 
WHO, UNICEF, etc., have come in, but you cannot find anything 
that they have done, or who to talk to, or how you can work 
with them. I think that would be very useful.
    Mr. Foarde. Very useful comments for me.
    Since there are so many of our staff colleagues that wish 
to ask questions, I am going to pass the baton on to my friend 
and 
colleague, Dave Dorman, who is the deputy staff director of the 
Commission staff, and represents Senator Chuck Hagel, our co-
chairman.
    David.
    Mr. Dorman. First, I would like to say thank you to each of 
you for coming today and sharing your insights, your knowledge, 
and experience with the Commission on this very important 
topic.
    I would like to just take 30 seconds to say that I have 
just learned that Dan Miller has accepted a 1-year assignment 
for USAID in Afghanistan running its agricultural programs. So, 
I know I speak on behalf of Senator Hagel and probably all of 
our commissioners when I say thank you for taking that very 
difficult and very important assignment.
    I have three very quick questions; one for each of the 
panelists.
    Dan, just a point of clarification. In your written 
statement, and also your testimony, you mentioned that the top-
down approach of many well-intentioned government programs 
impacts the success level. Later in your statement you 
mentioned that low community participation also impacts 
success.
    Are those two related? Are these two different problems or 
is the top-down approach generating low community involvement?
    Mr. Miller. In many ways they are two different problems, 
but they are related. Not only in Tibet itself, but throughout 
much of China, the government in many places takes a sense of, 
``this is what needs to be done for poor farmers and for poor 
herders,'' with their hearts in the right place, trying to 
help, but a very top-down type of approach. On the other hand, 
you also have very limited participation by the local people in 
making sure that their ideas, their needs, and their interests 
are being reflected in development projects. So, it is two 
separate problems, but they are very related.
    Mr. Dorman. Professor Goldstein, you mentioned in your 
statement that one of the things that we should all be seeking 
to find a way to generate non-farm income. I was wondering, and 
I suspect this is probably a question that cannot be answered 
easily, if you could help us understand the relationship, if 
there is one--I suspect there is one--between finding ways to 
generate non-farm income, and not impacting the unique 
lifestyle and cultural identity of nomads and farmers.
    Mr. Goldstein Well, I was talking primarily about farmers. 
Nomads, in some ways, are easier because they produce products 
that are more valuable. Farmers do not, so they need non-farm 
income.
    Although 60 percent of families had increases and a better 
life now than they had in the past, they are worried about 
their children and whether their children will have a better 
life than they have, and how to get that. Given the options as 
I laid out, then they see the only realistic one for them is to 
find sources of non-farm income.
    So some families that are better off buy trucks, some of 
them try to get into business, some have their kids learn 
carpentry because there is more income in that. Others just try 
to find jobs for their younger boys, and now girls, just 
working on road gangs and construction.
    Yes, it is changing life in Tibet. I am working on a paper 
right now showing how this is changing the organization and 
leadership in families since the younger generation is the only 
one who can deal with the new world. The forces that are in 
play in China now are changing the social system. These changes 
do not make them less Tibetan, I think, any more than we are 
less American than we were in 1930. They are adapting the same 
way we in the United States have adapted to new situations, and 
are continuing to adapt now.
    Mr. Dorman. Good. Thank you.
    One quick question for you, Arlene. You mention in your 
statement that, despite government efforts, over 85 percent of 
Tibetan women deliver outside of a medical facility. To what 
extent is that due to lack of access to medical facilities as 
opposed to just traditional preferences?
    Ms. Samen. Well, I think it is multi-level. One, there are 
a lot of cultural beliefs behind why women deliver at home. 
There is a belief that childbirth itself is polluted, so they 
typically birth outside of the kitchen area, either in a shed, 
or in the barn, or even sometimes in a tent just so the rest of 
the household does not become polluted. So the concept of going 
to a facility to deliver is a little new to them. I think, 
through community outreach, they are getting pushed to do that 
because the government campaign has a new system where they 
give 20 RMB to the woman if she comes to the facility, and 10 
to the person that brings her.
    There is still resistance because of their cultural 
beliefs, and then there are also transportation issues, and 
then issues around reimbursement. Many families cannot afford 
to go deliver in a facility. There is a new cooperative medical 
system in place now in the TAR, at least. If they do not know 
how to use that system, then if they do not go through the 
right avenues, they may end up at the Menzikhan, but if they 
did not have a referral to actually go there, they do not get 
reimbursed. So it is a little bit complicated, and we are 
working with the Health Bureau to better understand where we 
can focus attention to get people to use the facilities, and 
even to think is it appropriate for us to refer them?
    Mr. Dorman. Thank you very much.
    Mr. Foarde. Useful questions and useful answers.
    Let us move on, now. I would like to recognize our friend 
and colleague, Michael Schiffer, who represents Senator Dianne 
Feinstein of California. Senator Feinstein has been a stalwart 
in U.S.-China relations on Capitol Hill for many years, and 
particularly Tibetan issues. So we are particularly delighted 
to have Michael and his colleague, Joel McFadden, here with us 
this afternoon.
    Michael.
    Mr. Schiffer. Thank you. Let me just start off by joining 
my colleagues and thanking you for participating in this 
roundtable today.
    If I could start with a first question, I will address at 
least the first part of it to Dan. You mention in your comments 
that Tibetan farmers and nomads are not fully engaged in the 
design and implementation of the poverty alleviation programs. 
As you know, the Tibetan Policy Act has some guidelines that 
were intended to make sure that the U.S. Government's systems 
benefit the Tibetan people. How are those guidelines being 
incorporated into USAID's work?
    I guess, a related question for Mel and Arlene is, on your 
end of things as you work with USAID, how do you see those 
guidelines and principles incorporated into the work that the 
USAID is pushing?
    Mr. Miller. Yes. As I had mentioned, Tibetan farmers and 
herders have not been fully engaged in the process of planning 
and development. With USAID, in terms of trying to develop a 
program where we would be supporting American-based NGOs to 
undertake activities, USAID staff undertook a trip out to 
Tibetan areas last summer, where we met with Tibetans at many 
levels, trying to better understand the problems and needs that 
they were having and things that they thought could be done.
    Certainly, as part of our process for soliciting proposals, 
it will be necessary for those American groups, when they plan 
their projects, to make sure that they are involving local 
Tibetans in the planning process and in the implementation 
period when projects are being undertaken, and that the Tibetan 
language is being used whenever possible.
    Mr. Schiffer. I do not know if you have any comment.
    Ms. Samen. Right now, my project does not have any USAID 
funds. We do have NIH funds. I think, if we were to apply for 
funding to help us with this maternal health project, I agree 
with Dan, it would be very useful for us to keep the Tibetans 
in that loop. What I have seen is a lot of different NGOs come 
in and try to mandate or change the system. The way that it is 
really going to work and be an infrastructure there is to 
listen to what the Tibetans feel are their needs and to work 
within that context.
    Mr. Goldstein I would just like to make a brief comment. I 
do not work with USAID or any government agencies, per se. But 
I think we have to keep in mind here that Tibet is a real 
place. We are not talking about Washington, DC, or Maryland, we 
are talking about China, the People's Republic of China. Most 
of the people who are in government, the leaders, are all 
Communist Party members. You cannot just go in and convince 10 
farmers to do something without the permission of their 
leaders.
    That does not mean that they are unreasonable or that it 
cannot be done. It absolutely can. So I think, as we think of 
how to use U.S. Government funding in Tibet, the common people 
have to be involved in it, but we also have to make a real 
effort to work with all those communists, because that is who 
runs the country. I think it can be done and I think there 
would be no problem, and the interests of Tibetans would 
benefit from it.
    Mr. Miller. If I could just add to that. Having worked in a 
number of other areas of China, such as Xinjiang, Inner 
Mongolia, and Gansu, with minority people in those areas, 
working on projects, yes, wherever possible you have to be 
working with the government officials. Oftentimes, they are the 
Communist Party members.
    But things are changing in Tibet and throughout China, 
including the Tibetan areas. People are becoming more aware of 
the need for participatory approaches and to be involving local 
people in the local level type of planning.
    You have to remember that, really, this kind of development 
activity only started 10, 15 years ago, and so these areas in 
western China are slow to catch up. But people are now starting 
to be aware of it and it is starting to be reflected in many 
areas in the west. It is an education process as well and it is 
going to take some time, but there are some encouraging signs.
    Mr. Foarde. Thank you, Michael.
    Let us go on and give Joel McFadden a chance to ask a 
question, if you have got one.
    Mr. McFadden. Please.
    Mr. Foarde. Go ahead. Sure.
    Mr. McFadden. Thank you all for coming today. I have a 
couple of questions here. One, is for Dr. Goldstein. I wanted 
to follow up on this discussion about generating non-farming 
income. My question was, you mentioned that some 44 percent of 
families have somebody involved as migrant laborers. How many 
of these migrant workers are actually staying within Tibet and 
how many are actually moving to some of the eastern Chinese 
cities, such as Shanghai and Beijing? To what extent is that 
helping their families?
    Mr. Goldstein Yes, that is an excellent question. In fact, 
one of the real problems that Tibet has faced is that they 
cannot go as migrant laborers anywhere else because none of 
them speak Chinese. There were no Chinese in any of the 
villages I studied, and virtually nobody knew Chinese. Some of 
the kids near a county seat knew some Chinese. So basically, 
not only can they not go out to Shanghai and work, but even if 
there is a Chinese firm where it would be needed to speak 
Chinese to get a better job, they probably could not. That is a 
real problem.
    It was 44 percent of all the males between a certain age, 
so that a lot of them are going out because they need the 
income. Income can be generated not just from road gangs, it 
could be from small businesses, handicrafts, any intelligent, 
thinking projects. Projects do not need to be millions of 
dollars.
    They could involve $20,000 in a local area that could 
generate some skills or something that could have a tremendous 
impact, and I think that is where we ought to look at USAID to 
find the right programs and have a broader spectrum of people 
competing, and then evaluate them.
    Mr. McFadden. I had a question for Ms. Samen, real quick. 
What sort of cooperation obstacles have you encountered in your 
work in Tibet from the local governments specifically? Are 
there areas where you would like to have more cooperation in a 
specific area where you have found obstacles in working with 
them, whether it is the TAR, the local health departments, or 
those sorts of folks?
    Ms. Samen. When we first came in we were one of the few 
projects that actually brought U.S. Government funding in. 
Initially, we went in with some NIH funds. As you know, NIH is 
very research-oriented. Just the word ``research'' to them 
brought up lots of suspicion, and the fact that we were going 
out to do ethnographic surveys around childbirth. So once we 
both understood that research to us and research to them meant 
two different things--actually, the U.S. Embassy in Beijing was 
very helpful. There is a Chinese woman there that works in 
research and she was very helpful in helping us translate 
documents. Then we started off on a better foot.
    Now, we have a really excellent relationship with the local 
health bureau and the regional health bureau. We have this 
committee that we developed and we meet on a regular basis. If 
we think something is sensitive, we go to them and ask them how 
best to handle this. We have an excellent relationship now.
    The director of the health bureau will be coming to Utah 
next month and meeting with people from our State Health 
Bureau. I think, as long as we stay really focused on maternal 
and newborn outcomes and around medical education, it is great. 
If we started to veer off and get our noses in different 
directions, I think we would run into more problems. But as the 
obstacles have come up, we have sat down and talked about them. 
I think they know our motivation is pretty pure. Right now, I 
think they pretty much would let us do anything because we have 
gained their respect, and we certainly respect them. You cannot 
work there without having a relationship with the local 
government.
    Mr. McFadden. Thank you.
    Mr. Foarde. Now I would like to recognize Andrea Yaffe, who 
represents Senator Carl Levin, one of our commissioners. Since 
Andrea started working for the Senator in his personal office 2 
years ago, she has been a real stalwart with us at all of our 
roundtables.
    So, welcome, again. Go ahead, please, and ask questions.
    Ms. Yaffe. Dr. Goldstein, you spoke about the competition 
the Tibetans are facing from the migration of Chinese laborers. 
I was wondering if our other two panelists could talk about the 
impact of Chinese migration on your efforts for development in 
the Tibetan region.
    Mr. Miller. Well, in my case, having spent considerable 
time in rural Tibetan nomadic areas, what you see happening is 
that, even in the Tibetan Autonomous Prefectures, for example, 
many of the shops, as well as the construction, and the service 
industry, a lot of the jobs are being taken by the Han and Hui 
people that are migrating in. At least in the nomadic areas, a 
big part of the problem is that the people certainly do not 
have the training or the language to be able to compete for 
these jobs. There are jobs there, but nomads cannot compete for 
them because of language, because of skills. There could be 
opportunities for construction-related work, but a lot of them 
do not want to do construction work. So, there is that cultural 
aspect to it as well. But the biggest concern is really the 
lack of skills to be able to compete effectively on many of 
these types of jobs.
    Ms. Samen. I do not see it as much in my particular area 
because Medrogongkar is all Tibetan, and the Han Chinese would 
not go out there to live or work, although, they just recently 
built a hot springs and a hotel nearby. But we are seeing more 
of the men in the families that live in the villages having to 
go into Lhasa or to leave their families to do road work or 
other types of work to bring income to the families. So I think 
it will become more of a problem in the future as the poverty 
level continues to drop because the crops are not selling and 
people have to leave their families to go get work, and so they 
are migrating more to the cities.
    Ms. Yaffe. I guess, for all the panelists, what kind of 
programs do you think are necessary to address this problem so 
that the Tibetans are not going to be further marginalized as 
development continues? Do you have specific suggestions?
    Mr. Miller. I will start off with that. Certainly, any kind 
of activities for education, be it primary and secondary 
school, just the whole aspect of education, generally, is 
helpful and necessary. Then there is the vocational training, 
carpentry skills, welding skills, car mechanic, sewing, various 
of these types of trades so that Tibetans have these kinds of 
skills.
    We also need to help them with business types of training 
so that the Tibetans, once they get these kinds of skills and 
training, could have some better business sense on how to 
operate small businesses like that. So, certainly those types 
of projects related to education and vocational training are 
very helpful.
    Mr. Goldstein That is a difficult question. If I knew it, I 
probably would not be here, I would be trying to do it out 
there. But I think one thing, another caveat that I should 
mention, is that when we talk about Tibetans being 
marginalized, Tibetans are like Americans. Some of us have a 
lot of money in the stock market and are doing very well, and 
others are in the inner city on welfare. So the strategies for 
development are going to be very difficult for the hard-core 
poor in Tibet who are dependent on welfare, the same as the 
hard-core poor are in the United States. The middle-income 
groups who have some potential might be helped by vocational 
training and help, and then starting a little business while 
those who are better off and could use the money to maybe open 
a large trucking business, or something like that. It is very 
complicated, just as it is here. We cannot solve our own 
problems.
    So, the thing over there is that with the political 
problems overlaying everything, it is hard, but it can be done. 
I have seen things that work. I have experimented myself. It is 
not easy and it is certainly not easier than here.
    Ms. Samen. I agree. I think it is a very complicated issue, 
and multi-level. But, starting just with helping with poverty 
and getting people to be able to eat better in our particular 
area, that really has an impact on pregnancy and newborn 
infants' lives. If we had funds from USAID, we could really be 
doing aid projects that can help to set up an infrastructure 
for health care out in the rural areas, because it is very 
limited. There are seven hospitals in Lhasa Prefecture and 
Lhasa City, but when you go outside of that area, the county 
hospitals are run down, they have no blood bank, they have no 
doctors who can provide any kind of emergency services. There 
is no transportation.
    But any project has to be done in a way that there is a 
bilateral agreement saying that if there is an infrastructure 
built, that must stay in place. We should not put money there 
and turn around and walk away, because the hospital would fall 
apart and it would be the same problem all over.
    Mr. Miller. If I could follow up a bit on Ms. Yaffe's 
question, and also to go a little bit further on what Mel has 
said. It is very complicated and complex. I think oftentimes 
here in America sometimes people have this impression that, oh, 
Tibet is just kind of one area.
    But when we are talking about the Tibetan areas of China, 
you are talking about close to 2.5 million square kilometers. 
We have farming communities. We have nomad communities. We have 
different environmental situations. In very western Tibet, it 
is a very dry, high, cold desert, almost strictly pastoral 
nomadism taking place. In the eastern ethnic Tibetan regions of 
western Sichuan and northwestern Yunnan Provinces, very fertile 
environments exist. People there are much better off. There is 
easier access to roads and markets.
    So, it is a very complex situation that you cannot just 
give a general prescription for development. You really need to 
be looking at site-specific activities. Then, on top of that 
environmental layer, you have the administrative layer because 
things are different in the Tibet Autonomous Region than they 
are in Qinghai Province or Sichuan Province.
    So, you have many layers that all need to be considered 
when you are looking at coming up with activities or programs 
to train Tibetan people so they can more easily take on jobs. 
It is very complicated and complex. It is not as easy as we 
think it is at times.
    Mr. Foarde. Thank you all for your comments.
    Let me keep going and recognize Steve Marshall. For almost 
2 years, Steve has been our CECC staff expert on Tibet and we 
have learned a great deal about Tibet and its beauty, its 
problems, and everything else from Steve. Steve is responsible 
for organizing today's roundtable, so we appreciate that as 
well.
    The gavel is yours.
    Mr. Marshall. Thank you. I am really, really pleased to 
have heard everything each of you has had to say. This is 
decades of experience and a lot of heartfelt concern we are 
hearing today.
    I want to focus on sustainability. You cannot just come up 
with foreign funds indefinitely and keep pouring them out on 
the sand. Since you have ``been there and done that'' and have 
known these things over time, can you describe to us 
specifically, in your own experience if possible, precise 
examples of sustainable projects? You went out there, you did 
something, you got it going, and it keeps going.
    Arlene, would you like to start?
    Ms. Samen. Yes. The first 2 years that One H.E.A.R.T. did 
midwife training in Tibet, it was taught solely by midwife 
experts that we brought from around the world. Last summer, 
partly due to the SARS situation, we could not get back in time 
to start the course. But our Tibetan colleagues, who are 
obstetricians, they felt confident enough, having attended the 
courses before, that they felt they could go ahead and start 
it. So they pretty much taught the course on their own. Then by 
the time we were able to come back, we just basically came back 
and supervised part of the clinical rotation. But they now have 
written their own midwife training manual in Tibetan and it is 
culturally appropriate for them. The course will go on whether 
we get there or not this summer. So that, for us, has been one 
thing that has been quite sustainable.
    We are having a little more difficulty in keeping the 
infrastructure sustainable out in the community area, but have 
set up a monitoring and evaluation system this year. It looks 
like we are identifying some leaders out there that will really 
take the ball and run with it. One of the people who is coming 
to Utah next month is the director of MPH from Medrogongkar 
County. He actually is very passionate about the work and it is 
our hope that he will just continue on with the project out in 
that area whether we are there or not.
    Mr. Marshall. Thanks.
    Dan, can you expand on that a bit?
    Mr. Miller. Yes. I will try to mention two or three things. 
First, regarding a project on biodiversity conservation on the 
Chang Tang Wildlife Reserve where I first started doing some 
work with George Schaller and the Wildlife Conservation Society 
back in 1993. Initially, this was just surveys of wildlife and 
nomads and range lands in the area to get a sense of what 
really the situation is, and what is going on. We went back a 
couple of years, or I went back a number of years with that, 
and then other people have continued working. But what you have 
now is that this reserve is starting to be managed. There are 
now periodic surveys done on wildlife in the area. There is a 
program of training for the forest guards, as they call them, 
to control poaching. There is work with the villages to make 
them aware of conservation issues and the importance of 
conserving the animals. That is something that I see has 
continued, if we are talking about sustainability.
    The capacity of those institutions involved has been 
strengthened and is now able to continue. This was catalyzed 
from the beginning largely through the efforts of Dr. Schaller 
and his organization and the teams of people that they are 
working with, so that effort has continued.
    The same with the Qomolangma Nature Preserve. Some of that 
initial work was done on surveys and trying to come up with 
management plans for the area. That work is now, I think, well 
in place.
    Another example is some work that I saw in Tibetan areas in 
Gansu Province. Actually, it was with some initial funding from 
Oxfam Hong Kong, working with a Tibetan man with a Ph.D. at 
Lanzhou University who works with Tibetan nomads in the area. 
He designed a community-based rangeland management approach 
that was very successful and happened to be the right place to 
do it. There were receptive local community officials, 
receptive villagers, and it worked. That model for a group-
based management of grasslands, instead of everything on an 
individual basis, raised the foundation for a much larger World 
Bank project in Xinjiang and in other parts of Gansu. They 
really promoted an approach in which you are looking at 
village-based management and group-based management to pastoral 
development, rather than just an individualized approach. So, I 
think that is something that shows sustainability of efforts.
    Mr. Marshall. Thank you.
    Mr. Foarde. Let me recognize our colleague Susan Roosevelt 
Weld, who is the general counsel of the CECC staff, for a 
question or two, please.
    Ms. Weld. Thanks, John.
    I want to start with Arlene. I am wondering if, in Tibet, 
there are strong women's groups. Are there traditional women's 
organizations that you could work with on birth practices?
    Ms. Samen. We just now started working with the Women's 
Federation, and also will be starting to do focus groups within 
communities with women. There usually does seem to be one or 
two in a community that will stand up and be active and take a 
voice.
    Tibetan women are extremely shy and often will not want to 
talk about health care issues or issues surrounding birthing. 
But now that we are doing a lot of education about why it is so 
important that women be aware of what happens during pregnancy, 
what happens if they were to die or their children were to die, 
women are becoming more interested and wanting to take more of 
a role. So I feel that the program is definitely going to be 
headed in that direction. We have identified several community 
women whom I think will have a voice. But it is not a typical 
Tibetan behavior to be very vocal about their own bodies or 
their own rights.
    Ms. Weld. That is puzzling, in a way, because I know that 
the male/female ratios of newborns in Tibet are more favorable 
to women than they are in the rest of China now. So I have 
wondered, and asked Steve about this, whether that meant that 
there is something cultural in Tibet which is more favorable to 
women.
    Ms. Samen. Mel probably can answer that better than I can.
    Mr. Goldstein I do not think so. That is a fascinating 
thing, I believe, although I do not quite understand what it 
is. It is not because women have a higher status than they have 
elsewhere in China.
    Ms. Weld. Interesting. My next question is, this Commission 
has the duty to look at the rule of law in China. Thinking 
about issues of poverty and income in rural areas, I wonder, 
which laws are useful to promote this? For example, now we see 
that people are 
allowed to have private property which will be protected in the 
Chinese Constitution. There has recently been reform of the 
laws of land use. I would like to know whether those new laws 
are helpful. Are they implemented in Tibet or are they only 
implemented in other parts of China? Are they useful to the 
Tibetan people in this respect?
    Mr. Miller. Let me start off with that. One law that I 
think is very important is the Grassland Law. My understanding 
is that it recently went through a revision, and I am not sure 
what the status is of it right now, or if it has actually 
finally passed. But my understanding is that there was a lot of 
discussion about whether that law should include provision for 
group-based management of grasslands, rather than just on an 
individual basis. So, certainly China's Grassland Law is 
something that would be of importance in the Tibetan areas.
    Mr. Goldstein I just do not really have anything to add 
about that. I think these would count much more in the urban 
areas where there is property and people are buying and 
selling, but in rural areas there is not a lot who would be 
involved in that; they only own the house that they have, 
perhaps. So, I really cannot add anything.
    Ms. Weld. Thank you.
    Mr. Foarde. Let me go on then and recognize our friend and 
colleague, Selene Ko. Selene is senior legal counsel on the 
Commission staff. She handles a number of issues, including 
commercial rule of law development, but has interests in a 
great many things. Over to you for a question.
    Ms. Ko. One of the things that I follow fairly closely is 
U.S. Government funding of programs throughout China, including 
the Tibetan areas of China. So, I am very interested in 
understanding how the process for allocating funds to projects 
through government funding, such as USAID, works. Dan, if you 
could talk a little bit about USAID's priorities for the 
funding? How does it decide on projects? Is there some sort of 
public bidding process, and is there any evaluation process?
    You discussed a few suggestions for areas where more 
funding could be used, education, training, and then you talked 
about agricultural projects. Are those areas that are focuses 
of USAID's funding for Tibet? From an NGO perspective, how 
accessible is this money to the NGO community, and do you see 
many NGOs trying to avail themselves of the opportunities 
provided by the funding?
    Mr. Miller. Yes. My understanding is that U.S. Government 
funding to Tibetan areas, I believe, really got started in 
fiscal year 2000 or 2001, when the funds were handled by the 
State Department and provided to American NGOs. Now USAID is 
managing some of this funding. In terms of the priorities, it 
really comes out of the Tibet Policy Act that states that 
funding should be used for activities to promote sustainable 
development, conserve Tibet's environment, and preserve the 
cultural heritage of the Tibetan people.
    So, those are the three categories, you might say, that we 
are bound by law to be supporting with USAID programs to 
American NGOs. That is pretty broad, but certainly then within 
the sustainable development aspect, USAID is in the process of 
developing what is called a Request for Applications [RFA], and 
a notice will be going out in the Federal Register.
    A lot of that is then addressing these three major 
concerns. So then a bidding process would take place that is 
transparent, in which NGOs are asked to submit proposals that 
are then evaluated by a technical committee in a competitive 
process to determine which ones are deemed the best available.
    In this process of preparing this Request for Applications, 
USAID visited the Tibetan areas in Qinghai Province last year. 
I provided a background paper on the environmental analysis 
that was done. We have been in close consultation with the U.S. 
Embassy in Beijing on this, and in consultation with the 
Special Coordinator for Tibet's office at the State Department 
on determining this program.
    In terms of looking specifically at agriculture, I would 
say that we certainly need to look at some of these aspects 
that I mentioned, about trying to promote economic growth and 
improving the lives of the Tibetan people.
    Ms. Ko. Is there any evaluation process envisioned as part 
of the grant making process?
    Mr. Miller. Well, certainly, USAID has a legal obligation 
to ensure that these funds are being used appropriately, and 
USAID has a regular evaluation process whenever funds are being 
used. But this project is still just getting started, but 
certainly there will be an evaluation process that will be gone 
through to look at the effectiveness of these activities.
    Ms. Ko. Thank you.
    Mr. Foarde. Thank you, Dan. I would now go to our friend 
and colleague, Carl Minzner, who is also a senior legal counsel 
for the Commission staff.
    Carl.
    Mr. Minzner. Thank you so much. I really appreciate the 
opportunity to ask questions of such a distinguished panel with 
so many collective years of experience in Tibet.
    Let me return to a topic that was touched on earlier. I 
think, as many people know, the Chinese Government policy for 
development in Tibet falls within sort of a broader plan for 
providing development for western China.
    One view that is often expressed on Capitol Hill, among 
other places in the United States, is that this policy, 
although it might have some incidental benefits to local 
Tibetans, is really part of a coherent plan or a policy 
designed to facilitate Han migration to Tibet.
    Based on your experience in Tibet, what can you say about 
this? Is this an accurate assessment? Is there truth to this 
idea as to the motivations behind the Chinese Government's 
development policies? I will ask all three of you.
    Mr. Miller. I will jump in here, first. Yes. This is 
oftentimes call the Great Western Development Strategy, I 
believe you are referring to, where the Chinese Government 
realized that the western regions were lagging far behind the 
eastern regions in terms of 
development, so there has been considerable effort going into 
developing these areas.
    Now, a lot of it has been in the last couple of years, with 
infrastructure development, roads, highways, railroads, and air 
facilities. Is this part of a plan for Han migration into these 
areas? I cannot say. But what I see is that, yes, the 
infrastructure development is taking place. The authorities 
realize that development has lagged behind. These areas need to 
develop. It is not just the Tibet Autonomous Region or Qinghai 
Province, it is Inner Mongolia, it is Xinjiang, it is Ningxia, 
it is Gansu, all of these areas. And, yes, it is creating jobs 
for local people, and also for people coming in from various 
places. I cannot say what the real motivation is behind it, 
other than what I see happening on the ground.
    Mr. Goldstein Nor can I say what the real motivation is. I 
think I do not have to say much to you distinguished gentlemen, 
other than development is politics. As development is politics 
in the United States, and it is certainly true in China. What I 
can say is that there are different opinions, I think, in the 
Chinese leadership as to what is in the national interests of 
the government there with regard to Tibet and, let us say, 
other minority areas. The policy that they have chosen is what 
I would think of as the more hard-line policy, because it is 
open competition. It would be like when the Chinese started 
opening up in 1980, if Deng Xiaoping had said any foreign 
company can come and buy whatever factory they want and just 
export whatever money they want and not transfer any technology 
to China.
    Well, that is what the policy is in Tibet. The Chinese 
Government has talked about policies where a kind of economic 
development would be formulated in which Tibetans get more of 
the 
advantages, more of the profit of it, but they decided against 
that direction and in favor of open competition.
    Now, one cynical interpretation would be to say that this 
was to improve migration. That is probably a part of it. The 
other thing is, how would you win over Tibetans if you are 
unwilling to reach a compromise with the exiles over political 
sharing?
    Their idea from the beginning has been that, by improving 
the standard of living as quickly as possible, you will win 
over their economic interests. So, that, I am sure, is a part 
of it, too. When you look at a program like this, I think 
people in Beijing have to say, ``Is this counterproductive or 
productive? '' I think they may be moving more to programs that 
are going to give more specialized preference to Tibetans 
because it is so obvious on the ground and to their leaders 
that Tibetans just need more jobs in the future or they are 
going to have a worse situation than they have now. So, I do 
not know if that answers your question, but I think it is 
complicated.
    Ms. Samen. I do not know what the Chinese policy is, but 
certainly Tibet is viewed as a place of income generation. It 
is mostly tourism. There is also mining and the railroad coming 
in, and definitely a place where there is opportunity for 
entrepreneurship.
    So whether the Han Chinese or the Tibetans who are going to 
jump on that train has yet to be seen. But it is definitely 
growing by leaps and bounds, and there is a lot of financial 
opportunity there.
    I agree with Dan and Mel. The Tibetans really need to learn 
more about business, infrastructure, and vocations because it 
is just going to grow exponentially in the next few years. I 
personally would like to see a lot more Tibetans involved in 
the growth.
    Mr. Foarde. Interesting question, and interesting answers 
as well. Thank you all. We are getting very close to the end of 
our session this afternoon, but I would like to recognize for 
the last round of questions Steve Marshall.
    Steve.
    Mr. Marshall. I will follow up on the last question here. 
There is a very interesting comment, Dr. Goldstein, at the end 
of your paper about short-term alleviation of some of the 
poverty by using set-asides for jobs or rebates for Tibetan 
entrepreneurs to get them more involved in the economy.
    Is there something that, in your experience and to the 
extent you understand the Chinese laws, could actually be 
brought about? My sense is that it is, within the development 
programs and the autonomy law and so on. But I would wonder 
what you think, based on working on the ground and dealing with 
local officials.
    Mr. Goldstein I am not a legal expert, so I am not really 
familiar with the laws. But I think it certainly can be done. 
They talk about it now and there is a lot of thinking about it. 
They have talked about it in the past. When governments give 
out contracts, they can give out any kind of contract that they 
want. They can have a contract that says that 30 percent of the 
subcontractors have to be Tibetan.
    Now, who will do it? Not some of the farmers I am dealing 
with. But in those farm communities there are families who are 
doing phenomenally well, and they have companies, and they have 
skills, and business skills, and they could organize it. Right 
now, people generally go from these farming communities after 
they plant, which is sometime in the spring, and they come back 
just before the harvest, so they are away for 3 or 4 months on 
the road, trying to find jobs.
    Very often, Tibetans organize 50 or 60 people and take them 
500 miles away on a project. So, that is already going on, that 
there are Tibetan businessmen who try to get a contract from 
Lhasa, and then do something.
    It could be revved up very quickly, I think. And outside 
programs could then come in and try to provide some extra 
skills for what might be needed and then help people to 
organize by giving them the loan to buy the trucks to do the 
work. In that case NGOs could have a substantial impact. 
Tibetans are ready for it. Whether they want it or not, they 
all know they need it. Given an opportunity, if you can 
convince them, I think they will take it.
    But on the other hand, they are stubborn. Under the current 
government rules, they often do not have to do things. Even the 
local Party secretaries cannot make them do things. Two years 
ago, the local Governor of a county wanted them to plant all 
the crops in certain areas to be more effective, he thought. 
People did not want to do that and they blocked it, despite the 
Governor and despite the higher level officials.
    So, you have to convince the local Tibetans that the 
program is really useful and they are going to make money in it 
and it is in their interests. If you do, I think it will have 
impact. I think it is within the laws of China and within the 
feeling of many of the Tibetans in the government in Tibet to 
do that.
    Mr. Marshall. Thanks.
    Arlene, Dan, can you expand on that or add to that?
    Ms. Samen. I will let Dan, because I am really in health 
care.
    Mr. Miller. I was just going to say, too, that, yes, I see 
that there are these opportunities out there. Mel has given 
more of a specific example. But certain entrepreneurial types 
of people have things.
    If you were then to come in with a training program to 
develop the trade skills or specific skills that some of the 
workers might require, or to provide business development 
services for that entrepreneur and give them access to credit 
or loans, that he could get things going, yes, those types of 
opportunities are there.
    Again, it is just a matter of finding them and then coming 
in with the right kind of assistance to those individuals, you 
might say, but it is sort of the whole aspect of financial 
services and skilled trade development.
    Ms. Samen. I think there is a lot of room for micro-finance 
projects in Tibet. I think the Tibet Poverty Alleviation Fund 
is just starting some of those, and the Bridge Fund, certainly. 
But there is a lot more room for that.
    I mean, just in my midwifery project, just opening up to 
people in the community, recently when I was there, three of 
the women from the Women's Federation came to me and said they 
would like to be midwives.
    So, I think, given opportunities for either education or 
business, micro-finance, and given the assistance and 
mentorship that they need, I think that the Tibetans can have 
self-sustaining programs.
    Mr. Marshall. Thank you.
    Mr. Miller. I would just like to add that it is not only 
just micro-finance. Micro-finance is usually small amounts, a 
couple of hundred dollars or so. You need more than that to buy 
a truck or to really get something going. So, yes, micro-
finance is important, but also larger financial services are 
going to be necessary to jump-start some of these things that 
will then employ a lot more people.
    Mr. Foarde. Thank you all.
    The magic hour has come far too soon. We have had a very 
interesting session, with lots of great ideas and information 
that will be very useful to us in putting together our annual 
report this year.
    On behalf of Congressman Jim Leach and Senator Chuck Hagel, 
our co-chairmen, and each of our 23 commissioners, I would like 
to thank our three panelists, Dan Miller, Mel Goldstein, and 
Arlene Samen for sharing your expertise and taking the time to 
come this afternoon.
    I would like to thank all of you who came to attend and to 
listen, and to our staff colleagues who came this afternoon.
    Just a reminder, next Friday, March 26, at 10 a.m. in this 
very room we will have our next roundtable. I hope to see all 
of you there.
    Thank you, and good afternoon.
    [Whereupon, at 4 p.m. the roundtable was concluded.]



                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                  Prepared Statement of Daniel Miller

                             MARCH 19, 2004

    Thank you very much. I am grateful to the Congressional-Executive 
Commission on China for giving me the opportunity to speak today. This 
roundtable on development projects in the Tibetan areas of China is an 
important topic. I am especially pleased with the subtitle of the 
roundtable on articulating clear goals and achieving sustainable 
results. As a development specialist, I believe that development 
efforts in Tibetan areas of China, in order to be successful, need to 
give much greater 
attention to formulating explicit goals and objectives and ensuring 
that results are attained and that they are sustained.
    As a bit of background let me say that I have spent part of every 
year for the last 16 years working in Tibetan areas of China. In the 
beginning, I conducted research on rangelands, wildlife and nomads and 
later was involved in designing and implementing wildlife conservation 
and rural development projects for a variety of bilateral and 
multilateral organizations, and NGOs. At last count, I have made 35 
trips to Tibetan areas in western China. I have been fortunate to have 
been able to visit and work in numerous areas, including the remote 
Chang Tang region in the northern Tibetan Autonomous Region and western 
Qinghai Province, the central valleys of the TAR, eastern Qinghai 
Province, and the Tibetan areas of Gansu, Sichuan, and Yunnan 
Provinces.
    My work in Tibetan areas of China was preceded by many years 
working with Tibetan refugees and Tibetan-speaking herders and farmers 
in Nepal and Bhutan. I also speak Tibetan. I admit I have trouble 
carrying on a political or philosophical conversation in Tibetan--as I 
do in English--but I can easily converse in Tibetan with Tibetan 
farmers and nomads about agriculture, livestock and rangeland 
management.
    In the short time I have to talk, I would like to focus on 
agricultural development in the Tibetan areas of China and, more 
specifically, on livestock development for Tibetan nomads and farmers, 
which happens to be my area of expertise.
    Of the Tibetan population in China of about 5 million people, 
almost 2 million 
Tibetans are nomads who make their living primarily from animal 
husbandry. 
Another 2\1/2\ million people are agro-pastoralists, who combine both 
cropping and livestock raising for their livelihoods. As such, 
livestock development and the management of the rangeland resources is 
fundamental to the future development of the majority of the Tibetan 
people.
    Rangelands of the Tibetan Plateau encompass about 1.65 million 
square kilometers, an area slightly larger than the country of 
Mongolia--or about 2\1/2\ times the size of the State of Texas. Thus, 
the Tibetan rangeland environment is one of the world's largest 
rangeland landscapes. It is also one of the earth's most important 
ecosystems as it contains the headwaters environment for many of Asia's 
major rivers and has been identified as one of the world's priority 
areas for conservation of biodiversity. Despite its vast extent, the 
global significance of its biodiversity, the regional importance of its 
watersheds, and the millions of Tibetan nomads and farmers who are 
dependent on the rangelands, they have not been given the consideration 
they deserve.
    In the last 20 years, China has achieved remarkable agricultural 
and rural growth, greatly reduced poverty and addressed many 
environmental and natural resource degradation problems. In many of the 
Tibetan areas, however, broad-based rural economic growth has not been 
very significant yet. Poverty is still pervasive and inhibits the 
government's and rural communities efforts to create economic 
opportunities. Tackling poverty in the Tibetan areas is also 
constrained because of the poor understanding of the nature of poverty 
and the lack of reliable information about improved farming systems and 
more appropriate pastoral production practices. Some of these aspects 
on the nature of poverty among Tibetan nomads are dealt with in more 
detail in my prepared statement.
    To date, most Tibetan farmers and nomads have not participated 
fully in the assessment, planning and implementation of development 
programs and policies that affect their lives. Government development 
programs have generally taken a top-down approach and, despite their 
good intentions, have often been hampered because Tibetan farmers and 
nomads themselves were not involved in the design and implementation of 
activities and by faulty assumptions about poverty and Tibetan's 
agricultural and livestock production practices.
    In addressing poverty and implementing rural development in Tibetan 
areas, one is faced with problems of two production systems. On the one 
hand, there is the traditional agricultural and pastoral production 
systems, which can be seen as an evolutionary response to environmental 
limitations; it is a pattern for survival, which has proved successful. 
On the other hand, there is also another system, which is a new pattern 
for survival and increased production, based on the technical rationale 
brought in from outside but not yet adjusted to social factors and 
subjected to the test of time; its technical innovations are promoted 
by development projects and technical specialists. Dealing with 
problems, which relate to the entire system, including the interaction 
of old and new strategies will require much more careful analysis when 
planning development in Tibetan areas. Let me add here, that I have 
been amazed at the changes I have seen taking place in just a few year 
in many of the nomad areas in China where rangelands are being 
privatized and fenced and nomads are encouraged to settle down. It 
certainly is a dynamic environment.
    Rural development experience internationally, and elsewhere in 
China, demonstrates the benefits of adopting an integrated approach to 
tackling poverty--an approach that involves social and economic 
development as well as environmental management. An emphasis on 
economic growth within a community-based integrated development model 
has the greatest promise for a multiplier effect in reducing poverty in 
Tibetan areas. It addresses the needs of Tibetans in local communities 
and the opportunities that exist for increasing incomes and improving 
livelihoods.
    The lack of markets of livestock and agricultural products, of 
agro-processing that adds significant value, and of financial services 
are important contributors to the environmental, economic and social 
problems afflicting Tibetan areas. Development of integrated markets 
for agricultural and livestock products that increase the flow of 
products and price signals that reward higher quality is essential to 
adding 
economic value, reducing the negative impacts of overgrazing and 
environmental degradation, and improving the livelihoods of farmers and 
nomads. Development of demand-based agricultural processing enterprises 
that add significant value to agricultural and natural resource 
products means a greater emphasis on quality rather than quantity. It 
also underscores the importance of providing increased alternative 
opportunities for employment and income for Tibetan farmers and 
herders.
    Reducing poverty and promoting sustainable development in Tibetan 
areas requires expanding the income base for Tibetans. The economic 
base of the majority of Tibetan people is primarily agriculture and 
animal husbandry is the dominant agricultural activity across much of 
the Tibetan plateau. Therefore, improvements in livestock production 
and animal husbandry practices, in both agricultural and nomadic areas, 
hold the potential for stimulating economic growth. Yet, when we look 
at the types of development projects that are being implemented by most 
American-based NGOs in Tibetan areas there is surprisingly little 
attention being paid to livestock development.
    The key issues for sustainable development in the Tibetan pastoral 
areas to be resolved are: (1) widespread poverty; (2) rangeland 
degradation; (3) unsustainable livestock production practices; (4) poor 
market development; (5) weak community participation; and (6) lack of 
integration in addressing the problems. The development challenge is 
determining how to target funding better to address these issues and to 
ensure that resources allocated for development actually reaches the 
Tibetan farmers and nomads.
    I would now like to go back to the subtitle of this roundtable: 
articulating clear goals and achieving sustainable results. Having been 
involved in rural development for many years, I firmly believe that 
clear objectives and strong commitment drive successful projects. There 
are numerous US-based NGOs working in Tibetan areas of China, a number 
of them with funding from the US Government. NGOs are widely perceived 
by the public as more effective than larger donors at reaching local 
people. Typically, NGOs operate small-scale, community-based projects.
    Having worked for both NGOs and larger multilateral and bilateral 
development organizations, I think the development planning process 
that larger development organizations like USAID, the Canadian 
International Development Agency (CIDA) and the World Bank embrace--
tools such as results-based management and logical frameworks--are very 
valuable and could help NGOs be more strategic and effective in their 
work in Tibetan areas. These tools--and there are numerous training 
programs and manuals on them--assist you to clearly define goals, 
development objectives, outputs and activities. It really doesn't 
matter if you are designing a large $50 million project or a small, 
$50,000 project--the process is the same.
    What is important is that the proper analysis is carried out, 
outputs and activities are clearly defined, performance indicators are 
defined, and a monitoring and evaluation system is designed. Roles and 
responsibilities of different actors also need to be defined and a work 
plan schedule developed. Since funding is limited, development 
organizations also need to focus on those activities that provide the 
greatest return on investment. Economic analysis has to play an 
important role in identifying costs, benefits and risks and in 
evaluating design alternatives during project planning.
    Defining development goals and objectives and achieving sustainable 
results in Tibetan areas will require that those organizations 
currently working there, and those desiring to work there in the 
future, learn to use these development tools that have proven to be 
useful.
    With respect to sustainability, the basic objective for 
sustainability is to institutionalize the project/program outcomes in 
partner organizations. This requires permanent changes in institutional 
knowledge, processes, and systems. Having a project sustainability 
strategy helps ensure that project strategies, management structures 
and processes foster stakeholder participation, capacity building and 
ownership of results. The likelihood of sustainability is increased 
when local partners are involved in decisionmaking. When they 
participate in decisionmaking about the use of resources, they are 
building their capacity to assess needs, formulate solutions, and 
ensure their effective implementation.
    The US Government Agency I work for, USAID, has considerable 
experience and lessons learned about pastoral development that is 
relevant to Tibetan nomadic areas. For example, the Global Livestock 
Collaborative Research Support Program has worked with pastoralists in 
South America, East Africa, and Central Asia. Many of the approaches 
from these activities could be applied to Tibet. USAID also has been 
working with nomads in Mongolia, forming herder groups and working with 
herders to develop rangeland management plans and improving the 
business of herding that is relevant to Tibetan pastoral areas. A 
number of other bilateral and multilateral organizations have range and 
livestock development projects in Inner Mongolia, Gansu, and Xinjiang 
regions of China and have valuable lessons-learned on organizing 
pastoral development.
    In addition, a Sino-US Center for Grazingland Excellence was 
recently established in Gansu Province of China that will provide 
opportunities for American scientists to work with scientists from 
universities throughout Western China, including the Tibetan Autonomous 
Region, on rangeland and pastoral development related research. I see 
this as an excellent opportunity for US-based NGOs working in Tibetan 
areas to team up with American and Chinese scientists (including 
Tibetans and Mongolians) to design long-term research efforts to help 
solve many pastoral development related issues.
    There is a great need for more multidisciplinary research that 
brings together the expertise of social scientists, ecologists, 
agronomists, economists, and pastoral specialists to develop a better 
understanding of the nature of poverty and existing agricultural and 
pastoral production practices among Tibetan farmers and nomads. 
Research also needs to be more participatory and farmers and herders 
need to play a larger role in setting research priorities and in 
determining the merits of research findings.
    Research efforts need to be directed toward understanding current 
nomadic pastoral production and farming systems and how they are 
changing and adapting to development influences. Practices vary 
considerably across the Tibetan areas and these differences need to be 
analyzed. How do increasing demands for livestock and agricultural 
products in the market place affect future agricultural and livestock 
sales? What constraints and opportunities for improving production are 
recognized by the farmers and nomads themselves? What forms of social 
organization exist for managing livestock and rangelands? How have 
these practices changed in recent years and what are the implications 
of these transformations? Answers to these and related questions will 
help unravel many of the complexities of current agricultural and 
pastoral production systems, of which we still know so little about, 
and will help us to better plan future interventions.
    The crucial problem now facing agricultural and livestock 
development in Tibetan areas appears to be organizational and 
behavioral, rather than technical. That is to say, what social forms of 
production are likely to be viable in the changed socio-economic 
situation that now faces most rural Tibetans? Analyses of the socio-
economic processes at work are a key challenge for development workers.
    Finally, let me conclude by saying that the challenges facing 
development in the Tibetan areas of China are considerable. 
Opportunities do exist, however, for improving the livelihoods of 
Tibetans. To be successful, development projects need to develop a 
better understanding of the ecosystems and agricultural and pastoral 
production systems, greater appreciation for Tibetan nomads and farmers 
and their way of life, and consideration of new information and ideas. 
There are no simple solutions. Due to the multifaceted dimensions of 
the development problems, actions will need to be taken on several 
levels: at the central policy level, at the university and research 
level, at the county and township level, and at the nomad and farmer 
level. Promoting more sustainable development in Tibetan areas will 
require policies and approaches that integrate ecological principles 
regulating ecosystem functions with the economic principles governing 
agricultural and livestock production and general economic development 
processes.
                                 ______
                                 

               Prepared Statement of Melvyn C. Goldstein

                             MARCH 19, 2004

    Rural Tibet has experienced a dramatic change in the past 25 years. 
Around 1980, the system of communal production in Tibet was replaced by 
the current quasi-market system called the ``responsibility system,'' 
and in almost all areas, the commune's land and animals were divided 
among its members on a one time basis. All individuals alive on the day 
of division got an equal share but anyone born after that did not get 
anything. From then on, the household became the basic unit of 
production as it had been in Traditional Tibet. A new economic era 
began.
    Although I am sure you all have heard or read depictions of Tibet 
as exceptionally impoverished, and to an extent it certainly is, it is 
also clear that in the two decades since 1980, the standard of living 
in rural Tibet has improved a great deal. Tibet has a long way to go, 
but it is important to understand how far it has come and what problems 
it faces moving forward.
    Much of what I am going to say is based on my own longitudinal 
research in rural Tibet that began in 1986, and in particular, from a 
large field study of 13 farming villages in three counties that began 
in 1998.
    On the positive side, almost all the rural farmers we studied had a 
favorable opinion of the responsibility system. Ninety-four percent 
indicated that their livelihood had improved since decollectivization 
in 1980. Seventy-seven percent said that they produced enough barley 
for their family's food needs, and 67 percent said that they had one or 
more year's worth of barley stored in reserve.
    Similarly, the three main high quality or luxury traditional 
foods--locally brewed barley beer, butter, and meat--were all widely 
consumed. Three quarters of the households said they now make and drink 
beer regularly rather than just on special occasions and the majority 
of families reported that they ate meat or fat either daily or several 
times a week. 91 percent reported they drank butter tea every day.
    Finally, the material situation of village households is another 
empirical way to assess standard of living. We addressed this by asking 
households about their ownership of a range of durable consumer goods 
that went beyond the ``basics.'' The 
results were mixed. While 71 percent of households owned a pressure 
cooker, 60 percent had a Tibetan carpet set, and 57 percent had a metal 
stove and 53 percent a bicycle, only 30 percent had a sewing machine.
    What accounts for these gains? First and foremost is the new 
economic framework that allowed households to keep the fruits of their 
labor. In farming, this allowed households to intensify the care with 
which they planted their own fields, and resulted in most households 
quickly experiencing increases in production. These increased yields 
were further amplified by the government's new policy of exempting 
rural Tibetans from taxes.
    This effect was even more impressive with respect to domestic 
animals which increased 82 percent since decollectivization, and more 
if chickens and pigs are counted. The milking animals that provide the 
essential milk that every rural household needs to make butter for tea, 
have increased an amazing 668 percent.
    Finally, the new economic structure also has allowed and encouraged 
rural households to engage in non-farm income generating activities, 
and as we shall see, many have done so.
    But I do not want to paint an overly rosy view of rural Tibet. 
Despite these improvements, Tibetans clearly have a long way to go vis-
a-vis inland China. For example, as of 2002, none of the 13 villages we 
studied had running water in houses and only the village immediately 
adjacent to a county seat had a water tap and electricity. None of the 
areas had improved dirt roads, let alone paved roads.
    And, critically, there is still a great deal of real poverty. 
Despite starting equally in 1980, 14 percent of households were poor in 
the sense that they did not have enough grain either from their own 
fields or bought through earned income, and another 28 percent of 
households were having a difficult time meeting their basic subsistence 
needs. Moreover, in the poorest areas we studied, about 30 percent of 
the households were poor as I defined it. Thus, while progress in rural 
Tibet in some ways has been impressive, many families have faltered and 
are in dire need of assistance.
    The situation in Tibet, however, is not static and there are 
fundamental changes going on that need to be mentioned since these 
raise serious questions about whether the overall increases of the past 
20 years can be sustained, let alone improved over, say, the next 20 
years.
    First, and most critical, is a serious decline in per capita land 
holdings. As a result of population growth and fixed land size, there 
has been an average decline of 20 percent in per capita land holdings, 
and this does not take into account land lost to home building sites, 
floods, roads, etc. Since Tibet's rural population will continue to 
grow during the next decade, this process of decline will continue.
    Second, the cost of living is increasing. In addition to general 
inflation, the price of key products such as chemical fertilizers has 
increased substantially, while at the same time there has been a 
decrease in government subsidies and an increase in local taxes. This 
combination is also likely to be exacerbated in the years ahead.
    Compensating for this by trying to increase yields will not be easy 
because farmers are already using high levels of chemical fertilizers 
and improved seeds.
    Similarly, it is unlikely that the value of Tibetan crops will 
increase and compensate for the changes. The market for Tibetan crops 
is limited and declining. Tibetan barley and wheat have no export 
potential outside of Tibet because Chinese do not eat barley and find 
the Tibetan wheat too coarse. And even in Tibet, the increasing 
consumption by Tibetans of rice, 1vegetables and imported white flour, 
means they are consuming less barley and Tibetan wheat, and this 
trajectory is likely to increase.
    Tibetan farmers are acutely aware of these changes and challenges 
and they are trying to compensate in a variety of ways, for example by 
contracting fraternal polyandrous marriages in which two or more 
brothers take a wife since this concentrates labor in the household and 
avoids dividing the land between the brothers. They are also 
increasingly using contraception to have fewer children, and most 
critically, are actively taking steps to secure non-farm income.
    It is clear to rural villagers and their leaders that without a 
source of non-farm income households can not move from basic 
subsistence to a good standard of living, and in the future it may not 
even be possible for households who are now self-sufficient from their 
fields to remain so if they do not have some modicum of non-farm 
income.
    Not surprisingly, in 1998, 44 percent of males between the ages 20 
and 34 were engaged in migrant labor for part of the year and 49 
percent of all households had at least one member so engaged. Most of 
these worked as manual laborers on construction projects. Moreover, it 
is significant to note that only 24 percent of households in the 
poorest area were engaged in non-farm labor.
    With respect to such work, we found widespread frustration and 
anger in the villages about the difficulties villagers faced in finding 
jobs. Villagers commonly complained that there are not enough jobs for 
them and that because their skill levels are low, most of the jobs they 
find pay poorly. The villagers overwhelmingly lay the blame for this on 
the unrestricted influx of non-Tibetan migrant laborers.
    Rural Tibetan farmers now find themselves in competition for 
constructions jobs with large numbers of more skilled and experienced 
Chinese workers, and given the current policy, this competition will 
certainly increase. How Tibetans will fare in the future, therefore, is 
less than clear. There are some positive signs, but it is hard to be 
very optimistic. What is really needed is a change in government policy 
that would give much greater priority to securing jobs for Tibetans, 
perhaps through a large-scale system of set-aside contracts for them 
for some period of time.
    However, if the current policy continues, rural Tibetans will have 
to compete as best they can, and it is here that outside development 
organizations can and should play a helpful role. There are many things 
that rural Tibetan communities need, but I believe that the greatest 
impact will come from those programs that address what rural Tibetans 
themselves primarily want and need, namely, assistance in generating 
non-farm income. Whether the life of rural Tibetans will improve in the 
next decade depends on many complicated issues occurring at the 
macrolevel, but it is clear to me that foreign development programs can 
make a useful difference in the lives of rural Tibetans, although given 
the economic and political problems in Tibet, it will not be easy.

                 Prepared Statement of Arlene M. Samen

                             MARCH 19, 2004

    Tashi Delek. I want to thank the CECC for inviting me to share with 
you One H.E.A.R.T.'s work in Tibet.
    Last October, while working at 15,000 feet in Medrogongar County, I 
was suddenly called to help a pregnant woman in a remote village. She 
had been in labor for 4 days. I found her alone in a cold, dark shed, 
while her family huddled around a warm fire in the kitchen. Four hours 
later, the exhausted woman delivered a healthy baby boy into my bare 
hands. In the same county, this scene is repeated daily. Tragically, 
just a few days earlier, another young mother bled to death during 
childbirth.
    Like other cultures, a Tibetan mother's death is devastating to her 
family for it often threatens the health of her children and impacts 
the family for generations. The mother is the thread that holds the 
family together. When a Tibetan mother dies, her surviving children are 
three to ten times more likely to die within 2 years.\1\ When a Tibetan 
mother dies, her surviving children are more likely to die young and 
less likely to attend school or complete their education.\2\
---------------------------------------------------------------------------
    \1\ M.A Strong, ``The Health of Adults in the Developing World: The 
View from Bangladesh.'' Health Transition Review 2(2):215-24,1992.
    \2\ Family Care International, ``Safe Motherhood as a Vital Social 
and Economic Investment,'' Safe Motherhood Fact Sheet, New York, 1998.
---------------------------------------------------------------------------
    Many Tibetans believe that a mother's death during childbirth is 
ominous, a sign of bad spirits that bring misfortune to her family and 
her community. Saving the lives of Tibetan women and their children is 
of the utmost urgency for the survival of the Tibetan culture. One 
HEART's mission is to work with Tibetans to improve the circumstances 
of childbirth and maternal and newborn survival on the Tibetan Plateau.
    Tibetan society is one of the few in the world in which there is no 
tradition of trained midwives who facilitate the delivery process. Poor 
nutrition, the lack of trained health personnel and emergency services 
combine to place Tibetan women and infants at high risk for labor 
related deaths. The vast majority of births take place at high 
altitude, in a cold environment and without access to electricity or 
health care. In spite of active campaigns by the Chinese government to 
encourage women to deliver in a medical facility, more than 85 percent 
of Tibetan women deliver at home. Most babies are delivered with only 
the help of the mother or the mother-in-law of the pregnant woman, and 
their only assistance is the cutting of the cord. Amazingly, many 
Tibetan women deliver their babies completely alone.
    It is believed that Tibet has one of highest newborn and infant 
mortality rates in the world. Tibetan women are three hundred times 
more likely to die than American women from various pregnancy and 
delivery complications. Post partum hemorrhage is the leading cause of 
death. Likewise, babies are far more likely to die in Tibet than 
anywhere else in the world. We believe that most of these deaths are 
preventable with minimal technology and simple interventions.
    In 1998, a group of maternal child experts founded One HEART, in an 
effort to address maternal and newborn death in Tibet. We are a 501(c)3 
organization based in the Maternal-Fetal Medicine Division of the 
University Of Utah School Of Medicine.
    In the summer of 2000, One HEART, in collaboration with The Trace 
Foundation and the Netherlands Red Cross, provided the first skilled 
birth attendant course in Lhasa Prefecture. Since that time, we have 
focused our attention on Medrogongar County. According to Lhasa Health 
Bureau records, Medrogongar County has the highest reported maternal 
and newborn death rates in the Lhasa Prefecture. An estimated 75 
percent of stillbirths and 30-40 percent of infant deaths can be 
avoided with adequate nutrition, prenatal and skilled delivery and 
post-delivery care for mothers. Medrogongar, because of its close 
proximity to Lhasa, provides an ideal setting for training, monitoring, 
and evaluating these outcomes.
    Our midwifery course is now an annual event and is being taught 
entirely by our Tibetan colleagues with clinical supervision by Carolyn 
Bell, FNP/CNM, Midwifery Specialist. Our close working relationship 
with our Tibetan staff and partners and the Chinese Health officials is 
helping to build a successful and sustainable infrastructure.
    In January 2000, the University of Utah received a 5-year grant 
from the NIH/NICHD. Under the guidance of Principal Investigators Drs. 
Michael Varner, and Suellen Miller, and Anthropologists Drs. Vincanne 
Adam and Sienna Craig, we developed the infrastructure for clinical 
research in Tibet and are now preparing to conduct clinical trials of a 
centuries old traditional Tibetan medicine.
    Tibetans believe that this traditional medicine may help to prevent 
post partum hemorrhage.
    We are also conducting ethnographic surveys which have been 
extremely valuable for both this research project and our midwife 
training programs. Hundreds of village women have been interviewed 
about their cultural beliefs around childbirth. One HEART works within 
these Tibetan cultural beliefs and practices, not only identifying 
those behaviors that may be harmful, but determining which beliefs and 
practices can help us to develop and implement culturally appropriate 
and sensitive health care interventions.
    In 2002, One HEART formed a committee of foreign and Tibetan 
experts to address the difficult health problems facing the Tibetan 
families around childbirth. The team includes physicians, midwives, and 
doctors from the Tibetan traditional medicine hospital (Mentzikhang) 
and the biomedical hospitals in Lhasa, as well as representatives from 
the Ministry of Health. The team discussed new ways to focus our 
collective expertise in a capacity building effort in the TAR. Out of 
this group, the Curriculum and Research Development Committee was 
formed and they have taken a leadership role in directing these 
efforts, helping to develop research protocols for designing and 
teaching curriculums. One HEART's work with this committee is ongoing 
and as time and training progresses, we anticipate that the Tibetans 
will assume more and more responsibility for these programs.
    During the fall of 2002, One HEART gained permission from the Lhasa 
Health Bureau to review and analyze death records for infants and 
children in Medrogongar County. It is clear that there are significant 
challenges even collecting maternal and child health data in such 
remote and inaccessible villages as those found in Tibet. The results 
confirmed previous observations and also highlighted the main causes of 
death. The single main cause of death in Tibetan children is death 
related to childbirth. From 1997-2002, 154 out of 339 deaths occurred 
on the day of birth and were charted as ``breathlessness.'' 
Subsequently, Drs. Bernhard Fassl and Reini Jensen interviewed over 90 
families who had one or more babies die at birth. This data helped us 
to analyze the causes of newborn ``breathlessness'' and stillbirth and 
understand the causes and events that lead to these deaths. The three 
main causes of ``breathlessness'' appear to be: first, the absence of 
trained birth attendants; second, the inadequate management of babies 
who are not breathing at birth; and third, insufficient protection from 
hypothermia.
    Along with our Tibetan partners from the Health Bureau, One HEART 
is developing interventions that are both culturally acceptable and 
self-sustainable and implementing them in our training programs and 
public outreach messages. Tibetan and foreign experts agree that 
consistent and continued training in basic midwifery skills and 
emergency obstetric services, combined with community outreach messages 
regarding safe motherhood, can, over time, significantly decrease the 
number of women and children dying in childbirth.
    In April of this year, through funding from the Citizen Exchange 
Program of the U.S. State Department's Bureau of Educational and 
Cultural Affairs and One HEART, a group of six Tibetan doctors and 
Health workers is coming to the United States for one month of medical 
training. This experience not only develops their medical skills, but 
upon their return to Tibet, they can pass on this information to their 
fellow health workers.
    As you can see, we face many challenges in the Tibet Autonomous 
Region. At times, our task seems daunting, however with the passionate 
commitment of our staff and volunteers and with continued funding from 
the U.S. Government, private corporations, foundations, and individual 
donors, One HEART is making a difference in Tibet, one birth at a time.
    Thank you for your time.

                       Submissions for the Record

                              ----------                              


 Poverty Among Tibetan Nomads: Profiles of Poverty and Strategies for 
            Poverty Reduction and Sustainable Development\1\

                     SUBMITTED BY DANIEL MILLER\2\
               INTRODUCTION TO THE TIBETAN PASTORAL AREA

    The Tibetan nomadic pastoral area, located on the Tibetan plateau 
in western China, is one of the world's most remarkable grazingland 
ecosystems (Ekvall 1974, Goldstein and Beall 1990, Miller 1998c). 
Stretching for almost 3,000 km from west to east and 1,500 km from 
south to north and encompassing about 1.6 million sq. km., the Tibetan 
pastoral area makes up almost half of China's total rangeland area, 
equivalent in size to almost the entire land area of the country of 
Mongolia. As such, the Tibetan pastoral area is one of the largest 
pastoral areas on earth.
---------------------------------------------------------------------------
    \1\ Prepared for the Roundtable before the Congressional-Executive 
Commission on China, March 19, 2004.
    \2\ Agriculture Development Officer, U.S. Agency for International 
Development, Washington, DC.
---------------------------------------------------------------------------
    The Tibetan pastoral area sustains an estimated two million nomads 
and an additional three million agro-pastoralists and supports a large 
livestock population of some 10 million yaks and 30 million sheep and 
goats. Tibetan nomadic pastoralism is distinct ecologically from 
pastoralism in most other regions of the world (Ekvall 1968, Miller 
2000). The key distinguishing factors that separate Tibetan nomadic 
areas from cultivated areas are altitude and temperature, in contrast 
to most other pastoral areas where the key factor is usually the lack 
of water. Tibetan nomads prosper at altitudes from 3,000 to 5,000 m in 
environments too cold for crop cultivation. Yet, at these elevations 
there is still extensive and very productive grazing land that provides 
nutritious forage for nomads' herds. Tibetan pastoralism has flourished 
to this day because there has been little encroachment into the nomadic 
areas by farmers trying to plow up the grass and plant crops. A unique 
animal, the yak also distinguishes Tibetan nomadic pastoralism, which 
is superbly adapted to the high altitude, cold environment. The wild 
yak is the progenitor of all domestic yak populations. The 
domestication of the wild yak, about 4,000 years ago, was a key factor 
in the development of Tibetan civilization.
    The nomadic pastoral systems developed by Tibetan nomads were a 
successful adaptation to life in one of the most inhospitable places on 
earth (Clarke 1998, Manderscheid 2001a, Goldstein and Beall 1990, 
Miller 1998a). Over centuries, nomads acquired complex indigenous 
knowledge about the environment in which they lived and upon which 
their lives depended. Tibetan nomads mitigated environmental risks 
through strategies that enhanced diversity, flexibility, linkages to 
support networks, and self-sufficiency. Diversity is crucial to 
pastoral survival. Tibetan nomads keep a diverse mix of livestock in 
terms of species and class; they use a diverse mosaic of grazing sites, 
exploiting seasonal and annual variability in forage resources; and 
they maintain a diverse mix of goals for livestock production. The 
organizational flexibility of traditional Tibetan nomadic pastoralism, 
which emphasized mobility of the multi-species herds, developed as a 
rational response to the unpredictability of the ecosystem (Goldstein 
et al. 1990, Levine 1998, Miller 1999b, Wu 1997).
    The economic viability and environmental sustainability of Tibetan 
pastoral production systems are under considerable scrutiny these days 
(Ciwang 2000, Sheehy 2000, Wu and Richard 1999, Yan and Luo 2000). 
Tibetan nomads are some of the poorest people in China and reducing 
poverty in the Tibetan pastoral areas is a daunting challenge. Many 
nomads are caught in a downward spiral of increasing poverty, frequent 
risk of livestock loss from severe snowstorms, physical insecurity, and 
rangeland degradation (Clarke 1998, Gelek 1998, Miller 2000). With 
rangelands increasingly being divided and allocated to individual 
households it is also becoming more difficult for nomads to increase 
livestock numbers, thus limiting their options to earn more income from 
increased numbers of animals and have a chance to rise out of poverty. 
Developing strategies to address poverty among Tibetan nomads requires 
an understanding of China's approach to rural development and poverty 
reduction in the pastoral regions and better knowledge about the nature 
of poverty in Tibetan pastoral areas.

  BACKGROUND ON RURAL DEVELOPMENT IN THE PASTORAL REGIONS OF WESTERN 
                                 CHINA

    In much of China's pastoral region, including the Tibetan areas, 
traditional livestock production and grazing management strategies have 
been greatly altered in the past several decades as the nomadic way of 
life has been transformed to one more oriented toward a market economy 
(Cincotta et al. 1992, Manderscheid 2001b, Miller 2000). Following the 
establishment of the People's Republic of China in 1949, the goal for 
agriculture has been to increase grain production, which resulted in 
the conversion of large areas of marginal rangeland to crop land; much 
of which was later abandoned as rain-fed grain production in the semi-
arid areas proved futile.
    Since the early 1980s, goals for the pastoral areas have been to 
increase livestock offtake, which has been promoted through the 
privatization of herds and rangelands, sedentarization of herders, 
intensive grazing management strategies, and introduction of rain-fed 
farming techniques for growing forage and fodder. Many of these 
developments were responses to economic objectives. In many cases, 
however, they have conflicted with the goal of maintaining rangeland 
ecosystem health and stability. In addition, they have not always been 
consistent with the local herders' own goals (World Bank 2001b). 
Longworth and Williamson (1993) concluded that the pastoral areas have 
been negatively affected by three sets of policy-related issues: 
population pressures; market distortions; and institutional 
uncertainties. These factors have interacted with the adoption of new 
technologies, including the opening of additional water wells and 
animal health programs; supplementary winter fodder/feed from 
agricultural byproducts; and cultivation of improved pasture, which in 
many cases has led to an increase in livestock numbers, thus, leading 
to rangeland degradation.
    With the decollectivization of the agricultural sector, China has 
achieved remarkable agricultural and rural growth, greatly reduced 
poverty and addressed many environmental and natural resource 
degradation problems. The livestock sub-sector has experienced 
especially strong growth and rapid expansion during the past two 
decades and the livestock sub-sector has consistently outperformed the 
agricultural sector as a whole (Nyberg and Rozelle 1999). Average 
annual economic growth rates close to ten percent, combined with 
specific efforts to diversify regionally and within the sub-sector have 
contributed significantly to raise farmers' and herders' incomes and 
has improved the availability and variety of food and livestock 
products for local and export markets.
    Reforms in the rural areas have been deliberate, gradual, and quite 
effective as the rural sector has moved away from a planned economy. 
The total number of people living in absolute poverty in the country 
has dropped to some 106 million, or about 11.5 percent of the 
population. The Chinese government has a strong commitment to poverty 
reduction, and the scale and funding of its poverty reduction program, 
and the sustained dramatic reduction of absolute poverty over the last 
20 years of reform, are exemplary (World Bank 2001a). Replicating these 
accomplishments and improving sustainability in the future, however, 
will be more difficult as many of the potential gains from the 
transition reforms have been achieved and weak demand has now slowed 
growth.
    A recent World Bank study (Nyberg and Rozelle 1999) concluded that 
future productivity gains in the agricultural sector will have to come 
from greater efficiencies of production, stimulated by market forces, 
and greater productivity of scarce natural resources through improved 
natural resource management and introduction of new technologies. 
Sustained rural development will also require more dynamic and 
effective rural institutions and financial systems, improved land 
tenure regimes, improved incentives for investing in agricultural 
development, liberalization of production, pricing and marketing 
policies, and better targeted investments in rural 
infrastructure and social services. There is also evidence now 
indicating that an increasing share of the remaining rural poor are 
concentrated in China's western provinces, and mostly within remote and 
mountainous townships. The educational, health, and nutritional status 
of these remaining rural poor is deplorable, and minority peoples are 
known to represent a highly disproportionate share of the rural poor 
(World Bank 2001a).
    Animal husbandry is one of the few major industries upon which 
further economic development of the strategically important pastoral 
areas in western China can be built. However, in the context of the 
Chinese agricultural sector, animal husbandry ranks a poor second in 
importance to grain production. Furthermore, within the animal 
husbandry sub-sector, pastoral livestock have not received as much 
emphasis compared to pigs, poultry and dairy cattle. Consequently, at 
the national level and even in most pastoral provinces, relatively few 
research or administrative resources have been devoted to pastoral 
livestock problems.
    In addition to the emerging strategic and political significance of 
the pastoral area, the changing food consumption patterns in China have 
awakened new interest in ruminant livestock grazed on the rangelands. 
The growing consumer preference for milk and meat is forcing a 
reassessment of priorities within the Chinese animal husbandry sub-
sector (Longworth and Williamson 1993). As China modernizes, the 
rangelands are expected to help meet the country's growing demands for 
livestock products in the future.
    China is facing major difficulties dealing with the simultaneous 
problems of improving the livelihoods of the pastoral population while 
protecting and maintaining the numerous economic and environmental 
benefits provided by rangeland ecosystems (Smith and Foggin 2000, 
Sneath 1998). Current information on rangeland degradation suggests 
that current strategies are not working (Ling 2000, Liu et al. 1999. 
Liu and Zhao 2001). Rangeland degradation is caused by many complex 
factors, but it is hard to avoid the conclusion that the most 
fundamental underlying cause has been poor government development 
policies relating to the pastoral areas (World Bank 2001). Other 
problems include a general lack of applied, cross-
disciplinary, and ecosystem-level research, which would provide a 
better basis for developing more integrated and sustainable rangeland 
management systems. A disproportionate amount of rangeland research is 
oriented to livestock and ways to maximize productivity from intensive 
livestock production, rather than understanding how livestock fit into 
the rangeland ecosystem and how to optimize production in an 
environmentally and socially sustainable way.
    China is also facing a dilemma regarding the effective 
privatization of land tenure in the context of its pastoral areas 
(World Bank 2001b). A
    concerted effort is now underway to establish clearly defined 
individual private property rights to land by allocating grassland to 
individual herders on long-term contracts. This policy entails high 
transaction costs, both private and public. Strict interpretation of 
the policy by local officials also prevents the adoption of more 
innovative forms of group-based rangeland tenure systems, often based 
on the traditional grazing management systems.
    Despite the growing awareness of and interest in the pastoral areas 
in Chinese policymaking circles, remarkably little research has been 
undertaken on a systematic basis in the pastoral areas. For example, 
while considerable effort has been devoted to surveying the extent of 
rangeland degradation, there have been almost no studies of the policy/
institutional framework within which the degradation problem has 
emerged. Indeed, in China, rangeland degradation is widely perceived as 
a technical problem for which there are technological solutions 
(Longworth and Williamson 1993).
    In China, many attitudes toward rangelands appear to be influenced 
by the notion that sedentary agriculture, particularly crop-based 
agriculture, is the superior development option. Rangelands are viewed 
as systems to be controlled and modified, much like cropland, rather 
than to be managed as natural ecosystems. This view is reflected in 
many of the terms that are used in discussion of pastoral development 
such as ``grassland construction'' and ``grassland ecological-
engineering'' (Miller 2002b). Development is focused on agronomic and 
production aspects instead of ecological sustainability. There appears 
to be little acceptance of the fact that most of the rangeland in China 
is of low productivity or that this situation is unalterable, either 
for ecological, technical and/or economic reasons (World Bank 2001).
    There is a similarly narrow-minded view of the validity of 
traditional nomadic pastoral production practices (Clarke 1987, 
Goldstein and Beall 1991, Miller 2002b). The purposeful, seasonal 
movement of nomads' herds is often viewed as ``wandering'' and an 
unsound type of use of the rangeland, instead of an efficient 
utilization of forage. Traditional herd structures, perfected over 
centuries, are seen as ``irrational'' and ``uneconomic.'' Nomads 
themselves are often perceived as ``backward'' and ``ignorant'' (Box 
1). Nomads have played an important role in the rangelands of China for 
thousands of years. As such, the social dimension of rangeland 
ecosystems should be an important aspect of research and development in 
the pastoral areas of China but, unfortunately, it is not.
    In China, both organizational divisions between academic 
disciplines and the intellectual assumption that view human beings as 
separate from their natural environment have impeded the integration of 
social and natural scientific research (NRC 1992). Chinese rangeland 
research primarily focuses on biotic interactions among soils, plants, 
and herbivores, with little attention paid to the behaviors and motives 
of the pastoralists. When Chinese researchers do focus on pastoralists, 
the information is typically limited to narrow economic parameters, 
reporting such figures as animal units, stocking ratios, and 
production/consumption levels (Williams 2002).
    The issue is compounded by the rather narrow approach taken to 
rangeland ecosystem research in China. There has been a general lack of 
applied, interdisciplinary ecosystem-level research, which would 
provide a better basis for developing more integrated and sustainable 
rangeland and pastoral development programs. Researchers have generally 
neglected such topics as the effects of traditional pastoral systems on 
rangeland ecology, the dynamics of herd growth and traditional risk 
management strategies among nomads, and the impact of large numbers of 
Han Chinese farmers into pastoral areas to convert rangeland to 
cropland.

          Box 1. Nomads ``in the way'' of Modernization

          Chinese rangeland policy initiatives are informed by a long 
        history of antagonism with the grassland environment and its 
        native inhabitants. For centuries, Chinese literati viewed and 
        described neighboring mobile populations and their homelands in 
        the most disparaging terms. These derogatory Confucian 
        attitudes were only strengthened by Marxist orthodoxy after 
        1949. The Marx-Lenin-Mao line of political philosophy viewed 
        nomadic pastoralism as an evolutionary dead-end standing in 
        opposition to national progress, scientific rationalism, and 
        economic development. Mainstream Chinese intellectuals in the 
        reform era still consider the land and people to be ``in the 
        way'' of modernization--obsolete and disposable in their 
        traditional composition.
        Source: Williams (2002:10)

    A serious re-evaluation of the approach being taken to rangeland 
management and pastoral development in China is needed (World Bank 
2001b). While there is no doubt that China's diverse efforts to prevent 
particular types of land degradation are having positive effects in 
some areas, and there are some promising new productivity enhancing 
technologies for some locations, there has been insufficient adaptation 
of strategies and policies to suit local environmental or social 
conditions. The tendency has been to apply a ``one-size-fits-all'' 
approach, which is not acceptable given the diversity of rangeland 
ecosystems, the different pastoral production practices, and the 
cultural diversity of the people who rely on the rangelands (World Bank 
2001b).
    There is growing awareness among policymakers in Beijing that the 
rangelands and the animal husbandry related industries in the pastoral 
areas are under serious threat (World Bank 2001b). There is also 
concern with the lack of economic development that has taken place in 
the pastoral areas of western China and the fact that minority 
pastoralists are some of the poorest people in China. Evidence of this 
is the development of the Great Western Development Plan that will 
target investments in the western provinces and autonomous regions, 
including Tibet.
    In the Tibetan pastoral areas, stimulating agricultural growth, 
reducing poverty, and managing the environment are huge challenges. 
Here, complex interactive issues related to the environment, 
technology, policies, and human population growth greatly hamper 
development (Levine 1999, Miller 1998b, Richard 2000). The key issues 
for sustainable development in the pastoral areas of the Tibetan 
plateau are: widespread poverty; rangeland degradation; unsustainable 
livestock production practices; poor market development; and lack of 
community participation in the development process.

                      POVERTY AMONG TIBETAN NOMADS

    In China, the Tibetan pastoral areas exhibit some of the highest 
incidence and intensity of poverty. Poverty in the Tibetan pastoral 
areas is due to many factors but the major causes of poverty include: 
(1) the harsh environment, characterized by cold temperatures, sandy or 
infertile soils, drought, snowstorms; (2) low agricultural 
productivity; (3) lack of financing and access to modern technologies 
to improve productivity; (4) low literacy levels and poor education 
systems; and (5) poor health care systems. In addition, the relatively 
high rates of population growth and large family size have trapped many 
families in continuing poverty. Frequent 
natural disasters, such as snowstorms that decimate livestock herds, 
can greatly increase the levels of poverty in pastoral areas. In 
addition, nomads' incomes are usually low and their asset base is often 
small, conditions that frequently undermine their health, well-being, 
and potential to make improvements in their livelihoods.
    Poverty exhibits certain common characteristics, but the Tibetan 
nomadic pastoral population and the poverty they experience have 
distinct features. The pastoral areas of the Tibetan Plateau have a 
small human population that is widely spread across physically isolated 
locations. Tibetan nomads are usually less healthy, less educated, and 
tend to experience poorer service delivery and declining employment 
opportunities than in other regions. Tibetan nomads usually face 
interlocking barriers to economic, social and political opportunities. 
They also lack a political voice because they are remote from the seats 
of power. These factors limit their access to basic infrastructure, 
undermine their ability to obtain social services, and in some cases 
reduce their rights to own or access land. Due to heavy reliance on 
rangeland-resource based livestock production systems, Tibetan 
pastoralists are very vulnerable to climatic changes and natural 
disasters. For example, the winter of 1997/98 was very severe across 
much of the Tibetan Plateau and an estimated 3 million head of 
livestock died in the Tibetan Autonomous Region alone, leading to 
greatly increased poverty among the pastoral population (Miller 1998b).
    In the Tibetan pastoral area, the challenges for rural development 
are especially daunting. Despite the political and strategic importance 
of the region, rural economic growth has not been very significant. 
Poverty is still pervasive. Widespread poverty inhibits rural 
development as well as the capacity of the region to seize new economic 
opportunities. Most Tibetan nomads have low cash savings rates and 
seldom participate in formal loan and credit programs. In general, 
nomads seldom take out loans to improve grasslands because it usually 
takes too long for returns to be generated. Most herders also simply 
sell animals to meet cash needs. There are also great differences 
between pastoral regions in terms of integration with the market 
economy and in the degree to which the production system has been 
transformed from nomadic to semi-nomadic or sedentary (Levine 1999, 
Manderscheid 2001b). Rapid economic differentiation among herders has 
meant that some are able to use market opportunities to their 
advantage, while others are only subject to market vagaries and depend 
largely on subsistence production. Distance from towns, roads, and 
markets are important factors contributing to poverty as are cultural 
practices.
    Poverty in the Tibetan pastoral areas is extremely heterogeneous. 
Many of the poor herders, both individuals and households, are 
economically active and possess a mix of income sources while others, 
especially the elderly, disabled and women-headed households, have to 
rely on other families and government support for survival. Animal 
husbandry remains the primary source of income, employment and 
livelihood for Tibetan herders, and a flourishing livestock sector is 
necessary to reduce poverty. There are few alternative sources of 
income and employment outside of the livestock sector for Tibetan 
herders. This is in contrast to many other rural poor areas of China 
where poor farmers are turning to the rural non-farm sector for 
employment and alternative sources of income. Many of the rural poor 
from other parts of China also migrate to the cities in search of work, 
which is generally not the case for Tibetan nomads. Since livestock 
production on the Tibetan Plateau is very dependent on the vagaries of 
nature, there is great annual and interannual variation in income and 
consumption. This often leads to the poorest pastoral households 
experiencing considerable deprivation during tough times, which can 
have adverse long-term consequences for babies and young children.
    Widespread poverty in the Tibetan pastoral area also affects rural 
communities and hinders their ability, and the government's ability, to 
provide adequate social services, maintain roads, and create economic 
opportunities. Tackling poverty in the pastoral areas is constrained 
because of the poor understanding of the nature of poverty in these 
areas--who the poor are and the obstacles they face--and lack of 
reliable information about the farming systems and nomadic pastoral 
production. To date, the nomads have not participated fully in the 
assessment, planning and implementation of development programs and 
policies that affect their lives. Government programs have generally 
taken a top-down approach and, despite their good intentions, have 
often been hampered because nomads themselves were not involved in the 
design and implementation of activities and by faulty assumptions about 
poverty and Tibetan nomads' pastoral production systems.
    Reducing poverty among Tibetan nomads in Western China is a major 
development challenge. Efforts to reduce poverty and improve 
livelihoods of pastoralists must address the roots of rural poverty. 
Fully understanding rural poverty and defining an effective poverty 
reduction strategy are preconditions to action (World Bank 2000). 
Tackling poverty in pastoral areas is constrained because of the poor 
understanding of the nature of poverty--who are the poor and the 
obstacles they face--and reliable information about the pastoral 
production system.

                PROFILES OF POVERTY AMONG TIBETAN NOMADS

    To better understand the nature of poverty among Tibetan nomads, 
profiles of poverty are presented for Naqu Prefecture in the Tibetan 
Autonomous Region. Naqu Prefecture encompasses about 400,000 km2, or 
about one-third of the total land area of the Tibetan Autonomous 
Region. There are 11 counties in Naqu Prefecture, including 147 
townships (xiang) and 1,527 Administrative Villages. The total human 
population of Naqu is about 340,000 people, in about 50,000 households. 
Nomadic herders make up about 90 percent of the population and these 
nomads are almost totally dependent upon livestock for a livelihood. 
Naqu's rangelands support a livestock population of about 6.8 million 
animals, consisting of yaks, cattle, sheep, goats, and horses. Naqu is 
predominantly a nomadic livestock area and rangelands are estimated to 
cover about 87 percent of the total land area of the Prefecture. About 
65 percent of the rangeland is considered to be usable rangeland. There 
is some crop cultivation that takes place in the lower elevation 
regions of Jiali Sokshan and Biru counties.
    The proportion of different livestock species raised by nomads in 
Naqu Prefecture differs across the region according to rangeland 
factors and the suitability of the landscape for different animals. 
Herd compositions within a geographic area can also vary with the 
skills, preferences and availability of labor of the nomads. Across 
most of western Naqu Prefecture, sheep and goats are more common than 
yaks. For example, in Shuanghu County in northwest Naqu, yaks only make 
up 4 percent of total livestock numbers. In contrast, yaks comprise 53 
percent of all livestock 400 km to the east in Jiali County. These 
differences can largely be explained by differences in vegetation 
between the two areas. In Shuanghu, the climate is drier and the 
dominant alpine steppe and desert steppe is better suited to goats and 
sheep. In Jiali, which is in the alpine meadow vegetation formation, 
there is more annual rainfall and the rangeland ecosystem is better 
suited to raising yaks.
    The dynamics of poverty among Tibetan nomads can be better 
understood from Tables 1-6 which present data from Takring and Dangmo 
Townships in Naqu County. Many nomads interviewed indicated that an 
ideal herd for an average nomad family (about 5 people) to have a good 
life would be 40 yaks and 200 sheep/goats. However, as indicated in 
Table 1, nomads in Taking and Dangmo on an average basis only have 
about 30 yaks and 50-75 sheep/goats per family. This is considerably 
less than the ideal.

    Table 1.--Livestock Per Household in Takring and Dangmo Townships
------------------------------------------------------------------------
                                                        Sheep     Goats
                 Township                   Yaks per     per       per
                                             family    family    family
------------------------------------------------------------------------
Takring...................................        31        38        12
Dangmo....................................        30        52        15
------------------------------------------------------------------------
Source: Township Records, 1999.

    Table 2 depicts the number of animal sold and consumed per family, 
on an average basis for the two townships of Takring and Dangmo. The 
data indicates that the nomads in these two townships have very few 
animals to sell for cash income. Most of their production goes to 
subsistence for their own consumption. This reflects the fact that 
average herd sizes are quite low and provide little offtake for income 
earning purposes or to buy additional items the family may require.

                Table 2.--Livestock Sold and Consumed Per Family in Takring and Dangmo Townships
----------------------------------------------------------------------------------------------------------------
                                                                  Yaks                Sheep               Goats
                                                        Yaks      eaten     Sheep     eaten     Goats     eaten
                      Township                        sold per     per    sold per     per    sold per     per
                                                       family    family    family    family    family    family
----------------------------------------------------------------------------------------------------------------
Takring.............................................      0.49      2.17      3.97     10.74      0.12      2.86
Dangmo..............................................      0.84      1.81      1.73      8.25      0.07      1.49
----------------------------------------------------------------------------------------------------------------
Source: Township Records, 1999.

    Table 3 shows the income earned per family from livestock and 
livestock products on an average basis for Dangmo Township. The 
greatest amount of income is earned from yaks and then from sheep. Yaks 
provide 74 percent of the total income from all livestock products for 
nomads.

                     Table 3.--Income Per Family From Livestock Products in Dangmo Township
----------------------------------------------------------------------------------------------------------------
                                                                                         Yak     Sheep     Goat
                                 Sheep wool sold     Goat cashmere     Yak cashmere      sold     sold     sold
           Township                 per family      sold per family   sold per family    per      per      per
                                                                                        family   family   family
----------------------------------------------------------------------------------------------------------------
Dangmo........................  30.8 jin.........  1.45 jin........  11.86 jin.......     0.84     1.73     0.07
Value in RMB..................  @3 = 92.4........  @70 = 101.5.....  @10 = 118.6.....    1,428      432        7
----------------------------------------------------------------------------------------------------------------
Prices for live animals: Yak @ RMB 1700, Sheep @ RMB 250 Goat @ RMB 100. 1 jin equals 0.5 kg.

    Table 4 depicts the total economic output from Dangmo Township for 
1999. The data shows that yaks contribute a majority of the economic 
output, almost 60 percent of the total economic value. Although sales 
of wool and cashmere are important, raising sheep and yaks for home 
consumption and sale are key factors in pastoral production among 
Tibetan nomads in Naqu.

         Table 4.--Economic Output from Dangmo Township for 1999
------------------------------------------------------------------------
                                                      Value     Percent
                      Product                         (yuan)    of total
------------------------------------------------------------------------
12,200 jin of sheep wool @ Y 3.5..................     42,700        1.4
576 jin of goat cashmere @ Y 70...................     40,320        1.3
4,697 jin of yak cashmere @ 10....................     46.970        1.5
1,048 yak @ Y 1,700...............................  1,781,600       59.6
3,952 sheep @ 250.................................    988,000       33.1
617 goat @ Y 100..................................     61,700        2.1
4 horses @ Y 7,000................................     28,000        0.9
                                                   ---------------------
                                                    2,989,290       99.9
------------------------------------------------------------------------
Note: includes total animals sold and consumed by the households. Not
  included is wool used and butter/cheese eaten. Very little butter/
  cheese is sold from Dangmo.

    Table 5 shows total livestock numbers and total annual offtake by 
livestock species in Takring and Dangmo Township. Yak offtake, which 
includes animals sold and eaten makes up about 8 percent of the total 
herd. Sheep offtake is about 38 percent in Takring and 19 percent in 
Dangmo. Goat offtake is 23 percent in Takring and only 10 percent in 
Dangmo. The differences between Takring and Dangmo cannot be totally 
explained by livestock numbers per household as Takring actually has 
fewer sheep per household, on an average basis, than Dangmo but has 
higher offtake. Some of this is probably due to access to markets as 
Takring is much closer to the main market in Naqu.

              Table 5.--Livestock Numbers and Total Annual Offtake in Takring and Dangmo Townships
----------------------------------------------------------------------------------------------------------------
                                 Total      Yak offtake      Total     Sheep offtake    Total     Goat offtake
           Township               yak        (percent)       sheep       (percent)       goat       (percent)
----------------------------------------------------------------------------------------------------------------
Takring.......................   20,780  1,742 (8.4)......   25,028  9,622 (38.4)....    8,371  1,958 (23.4)
Dangmo........................   11,718  1,048 (8.0)......   20,710  3,952 (19.0)....    5,778  617 (10.7)
----------------------------------------------------------------------------------------------------------------
Source: Township Records, 1999.

    Table 6 depicts the percentage of livestock, by species, that are 
either sold or consumed by the nomads. In Takring, of total yak 
offtake, only 18 percent are sold, but 82 percent are for home 
consumption. The ratio for sheep in Takring is 27 percent sold and 73 
percent consumed by nomads themselves. What is interesting is that very 
few goats are sold, which probably reflects the low demand for goat 
meat in markets in Tibet. Goats are raised primarily for cashmere and 
as meat for the nomads themselves.

                                         Table 6.--Livestock Sold and Consumed for Takring and Dangmo Townships
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                       Yak sold            Yak eaten          Sheep sold          Sheep eaten          Goat sold          Goat eaten
            Township                   (percent)           (percent)           (percent)           (percent)           (percent)           (percent)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Takring.........................  320 (18)..........  1,422 (82)........  2,598 (27)........  7,024 (73)........  81 (4)............  1,875 (96)
Dangmo..........................  332 (32)..........  716 (68)..........  686 (17)..........  3,266 (83)........  28 (5)............  589 (95)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Source: Township Records, 1999.

    The type of information presented above helps understand the 
nomads' pastoral production system and has implications for 
development. For example, the data shows the importance of the nomads' 
livestock production for home consumption. There is little excess 
livestock or livestock products available for sale. Development 
interventions that improve nomads' risk management and strive to reduce 
livestock losses and improve productivity could result in additional 
animals for sale which could lead to improvements in nomads' 
livelihoods.
    Nomadic pastoral production is labor intensive as yaks have to be 
milked, animals have to be herded and cared for, manure needs to be 
collected and dried for fuel, butter and cheese need to be made, water 
needs to be fetched, clothing and tents need to be woven, kids need to 
be looked after and fed and there are seasonal activities such as 
lambing, shearing, 1hay-making, and medicinal plant collecting that 
require extra effort. Households with inadequate labor to raise enough 
livestock have been especially affected and become trapped in poverty. 
Those families with adequate labor, but who have been poor managers of 
their livestock and grazing land also face difficulties. With the 
division and allocation of rangeland to households taking place across 
much of the Tibetan nomadic pastoral area, even poor households now 
have grazing land that belongs to them and if they do not have enough 
livestock they can rent pasture to richer nomads who have more 
livestock than the determined carrying capacity of their allocated 
rangeland.
    The harsh environment of the Tibetan Plateau and especially 
periodic, heavy snowfalls compounds the labor problem and even affects 
those households with sufficient labor and who are good managers. Snow 
disasters can decimate herds and cause even rich nomads to become poor. 
Fencing of the more productive pastures to reserve them for winter/
spring grazing, the growing of hay and the construction of livestock 
shelters greatly reduces the risk of losing animals during a bad 
winter. Many nomads, especially those who can afford the investments, 
are adopting pastoral risk management practices to reduce the danger of 
losing animals to winter storms. Reducing mortality of young lambs and 
yaks will provide the opportunity to earn more income and/or provide 
more food for the family, since a large portion of nomads' livelihoods 
comes from the home consumption of sheep and yaks and the sale of 
animals. This can be accomplished by: (1) improving livestock 
management, especially at lambing; (2) growing hay to feed in winter, 
especially during later stages of pregnancy and lactation for sheep; 
(3) fencing winter/spring pasture and deferring grazing on it during 
the growing season so that forage is available in the winter/spring; 
and (4) improved marketing of animals to reduce number of animals being 
kept over the winter.
    For poor nomads with few or no livestock at the current time but 
who do have rangeland allocated to them, a sheep distribution program, 
which provides adult female sheep to nomads can be a means to reduce 
poverty. This is especially true if it is designed so that after 3-4 
years the nomads return a number of sheep so that other poor households 
can benefit. Livestock herd projections indicate that a nomad family 
that is given 50 adult ewes would be able to build their herd up to 
about 100 ewes in four years, even with giving back 40-50 ewe lambs in 
the 4th year, and still sell the male animals every year (or a 
combination of household consumption and sale). If a sheep distribution 
program were linked with rangeland development and forage development 
(growing of oats for hay to be fed in the winter) and an improved 
livestock shed for lambing, the risk of losing animals in the winter 
would be greatly reduced. Improved road access to what were previously 
quite remote nomad areas also now allows nomads to take more advantage 
of markets for livestock.
    Tibetan nomads face considerable challenges in adjusting their 
traditional pastoral production practices to the new rangeland tenure 
arrangements now in place with the division and allocation of grazing 
land to households and the general ``settling-down'' of nomads. 
Opportunities for individuals to greatly expand livestock numbers are 
now limited because herders must balance livestock numbers with the 
carrying capacity of the rangeland. Nomads are compelled to become 
livestock ranchers and to optimize animal productivity on finite 
amounts of grazing land. This requires greatly improved management of 
the rangelands and livestock, rehabilitation of degraded rangeland, 
more efficient marketing of livestock and livestock products, and, for 
some nomad households, a move away from livestock production to other 
cash income-earning activities.

                NOMAD VULNERABILITY AND LIVESTOCK LOSSES

    The winter of 1997-1998 was the worst in recent history for much of 
the Tibetan nomadic pastoral area. Unusually heavy snowfall in late 
September was followed by severe cold weather, which prevented the snow 
from melting. Additional storms deposited more snow and by early 
November grass reserved for winter grazing were buried under deep snow. 
Yaks, sheep, and goats were unable to reach any forage and started to 
die in large numbers. By early April 1998, it was estimated that the 
Tibetan Autonomous Region (TAR) had lost over 3 million heads of 
livestock (Miler 1998b). Naqu Prefecture in the north was especially 
hard hit but many areas in the TAR were affected. Losses in Naqu 
Prefecture alone were estimated at about one million animals, or about 
15 percent of the Prefecture's total livestock population. In Nyerong 
County as a whole, one of the areas hit hardest, 30 percent of the 
livestock died and some townships within the county lost as many as 70 
percent. Many townships in Nyerong and other counties lost 40 to 50 
percent of their domestic 
animals. Almost one quarter of a million nomads were affected and 
hundreds of families lost all their animals. Economic losses from 
livestock deaths alone were 
estimated at US$ 125 million in the Tibetan Autonomous Region.
    Nomads suffered greatly as a result of the heavy snowfalls. Because 
the snow came so early, many nomads were caught with their animals 
still in the summer pastures and were unable to drive the livestock to 
winter quarters where some hay and feed was available. Many nomads were 
unable to sell animals they had planned to market in the fall of 1997, 
or even to barter livestock for barley grain they require. As a result, 
nomads lost not only their animals but also their source of income to 
purchase necessities they require. Many families fed whatever grain 
they had for themselves to their livestock to try to save the animals 
from dying. Before the snowstorms began, it was estimated that 20 
percent of Naqu Prefecture's 340,000 nomadic population were considered 
to be living in poverty. As a result of the livestock losses 
experienced during the winter of 1997-1998, it is estimated that about 
40 percent of the nomad population in Naqu Prefecture were facing 
poverty. Many other nomads, although still technically above the 
poverty line, had their livelihoods reduced. The effect of the winter 
of 1997-1998 will reverberate among the affected nomads for many years 
to come, as it will take considerable time for nomads to buildup their 
herds again.
    The devastating effect of severe snowstorms is illustrated in 
Tables 7-10 for Nyerong County, Naqu Prefecture of the Tibetan 
Autonomous Region. Nyerong County as a whole lost 24 percent and 20 
percent, respectively, of their yak and sheep population during the 
severe winter of 1997-98. Sangrong Township was especially hard hit. In 
Sangrong, total livestock population in 1998 was less than half what is 
was the previous year (Table 8). On a household basis, the losses were 
especially severe with average number of yaks per household dropping 
from 44 to 18 and sheep declining from 63 to 28 (Table 9). Some 
Administrative Villages within Sangrong Township were especially 
affected by the severe winter losses with livestock numbers per 
household declining drastically (Table 10).

                                                    Table 7.--Livestock Data for Nyerong County, 1998
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                        Death
                                                                                    Herd                               loss in    Offtake     Offtake in
                                                                   End of 1998  Composition    Percent       Death     percent    sold and    percent of
                                                                    Population   (percent)     Females    losses 1998     of       eaten        total
                                                                                                                        total                  numbers
--------------------------------------------------------------------------------------------------------------------------------------------------------
Yaks.............................................................      129,189         32.8         53.4       43,880     23.8       10,853          5.9
Sheep............................................................      219,105         55.6         51.1       63,002     19.1       48,386         14.6
Goats............................................................       38,650          9.8         58.5        8,007     15.3        5,549         10.6
Horse............................................................        6,760          1.7         42.2        1,184     14.9            0
                                                                  --------------
    Total........................................................      393,704
--------------------------------------------------------------------------------------------------------------------------------------------------------
Source: County Records.


  Table 8.--Livestock Population For Sangrong Township, Nyerong County
                                1996-1998
------------------------------------------------------------------------
                                            1996       1997       1998
------------------------------------------------------------------------
Yak....................................     12,653     13,631      5,670
Sheep..................................     20,461     19,570      8,826
Goats..................................      2,848      2,800      1,470
Horse..................................        425        401        314
                                        --------------------------------
    Total..............................     36,387     36,402     16,280
------------------------------------------------------------------------
Source: Township Records.


 Table 9.--Numbers of Class of Animals and Sheep Equivalent Units (SEUs)
  Per Household and Per Person in Sangrong Township, Nyerong County for
                                1996-1998
------------------------------------------------------------------------
                                                 1996     1997     1998
------------------------------------------------------------------------
Yaks per household...........................     40.8     43.9     18.1
Sheep per household..........................     66.0     63.1     28.2
Goats per household..........................      9.2      9.0      4.7
SEUs per household...........................    285.0    297.9    128.3
SEUs per person..............................     56.5     58.8     25.5
------------------------------------------------------------------------


               Table 10.--Household and Livestock Data for Three Villages in Sangrong in 1996-1998
----------------------------------------------------------------------------------------------------------------
                                                          Village #9          Village #11         Village #12
                                                     -----------------------------------------------------------
                                                        1996      1998      1996      1998      1996      1998
----------------------------------------------------------------------------------------------------------------
Households..........................................        24        26        25        27        30        30
People..............................................       122       135       120       122       153       155
Yaks................................................     1,312       632     1,134       374      1293       462
Sheep...............................................     2,483       814      1803       410     2,290       791
Goats...............................................       210        70       194        69       369       132
Horses..............................................        28        18        39        23        61        36
Yak per household...................................        55        24        45        14        43        15
Sheep per household.................................       103        31        72        16        76        26
Goat per household..................................         9         3         8         3        12         4
Horse per household.................................      1.16      0.69      1.56      0.85      2.03       1.2
SEUs per household..................................       390       159       314        91       313       114
SEUs per person.....................................        77        31        65        20        61        22
----------------------------------------------------------------------------------------------------------------
Source: Township Records.

    Tables 11-13, present data from Dangmo Township, Naqu County, 
Tibetan Autonomous Region that also helps illustrate the impact of 
severe snowstorms on nomads and how these climatic events can con 
tribute to poverty. Table 11 shows end of year livestock population for 
the years 1995-1998. The number of yaks declined from 11,268 to 10, 551 
and sheep numbers declined from 20,345 to 18,188 between 1997 and 1998. 
Table 12 shows total offtake and total number of livestock that died, 
by species, for years 1995-1996. Table 13 shows percent offtake and 
percent death loss of the total herd for each species. Although losses 
from the severe winter of 1997/98 were not as great as in Sangrong 
Township, losses were still high, with 11 percent death loss in sheep 
and over 7 percent in yaks. In 1998, numbers of animals that died were 
almost equal to number of animals eaten and sold.

  Table 11.--Livestock Population for Dangmo Township, Naqu County for
                                1995-1998
------------------------------------------------------------------------
                                    1995      1996      1997      1998
------------------------------------------------------------------------
Yaks............................    12,077    11,058    11,268    10,551
Sheep...........................    21,509    21,713    20,345    18,188
Goats...........................     5,062     5,142     4,051     4,890
Horse...........................       593       592       593       591
                                 ---------------------------------------
    Total.......................    39,241    38,505    36,257    34,220
------------------------------------------------------------------------
Source: Township Records.


                    Table 12.--Livestock Offtake and Death Loss in Dangmo Twp. for 1995-1998
----------------------------------------------------------------------------------------------------------------
                                         1995                1996                1997                1998
                                 -------------------------------------------------------------------------------
                                   Offtake     Died    Offtake     Died    Offtake     Died    Offtake     Died
----------------------------------------------------------------------------------------------------------------
Yak.............................        615      340      1,011      990      1,115      450        966      920
Sheep...........................      3,076      805      3,417    1,443      4,527    1,573      3,083    2,748
Goats...........................        400      211        596      353        703      342        532      535
Horse...........................         29        5         38       18         29       17         59
----------------------------------------------------------------------------------------------------------------
Source: Township Records.


                       Table 13.--Percent Offtake and Death Loss of Total Herd for Dangmo Township, Naqu County, Tibet, 1995-1998
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                       1995                   1996                   1997                   1998
                                                             -------------------------------------------------------------------------------------------
                                                              Offtake   Died  Total  Offtake   Died  Total  Offtake   Died  Total  Offtake   Died  Total
--------------------------------------------------------------------------------------------------------------------------------------------------------
Yak.........................................................     4.7     2.6    7.3     7.7     7.6   15.3     8.7     3.5   12.2     7.7     7.4   15.1
Sheep.......................................................    12.1     1.9   14.0    12.8     5.4   18.2    17.1     5.9   23.0    12.8    11.4   24.2
Goats.......................................................     7.1     3.7   10.8     9.8     5.8   15.6    13.8     6.7   20.5     8.9     8.9   17.8
Horse.......................................................       0     4.6    4.6     0.8     5.9    6.7     2.8     4.5    7.3     2.5     8.8   11.3
--------------------------------------------------------------------------------------------------------------------------------------------------------
Source: Township Records.

      ELEMENTS OF A POVERTY REDUCTION STRATEGY FOR TIBETAN NOMADS

    The profiles of poverty among Tibetan nomads described above shows 
the diverse nature of poverty among Tibetan nomads and the many 
challenges they face. In addition to a lack of animals and income to 
meeting basic human needs, many nomads also lack basic services such as 
health and education. Poor nutrition is also a problem. Reducing 
vulnerability, powerlessness, and inequality are critical challenges in 
pastoral areas. A poverty reduction strategy for Tibetan nomads should 
encompass the main determinants of poverty, promote economic 
opportunities, facilitate empowerment, reduce vulnerability, and 
determine exit strategies (World Bank 2000).
Promote economic opportunities for poor nomads
    The main determinant of poverty reduction is a robust rural economy 
with sustained growth and efficiency. This requires improving 
agricultural productivity, fostering non-farm activities, developing 
rural infrastructure, and expanding markets. A strategy for poverty 
reduction for Tibetan nomads should promote rural incomes and 
employment by fostering economic growth in livestock and non-farm 
sectors, liberalizing access and removing market distortions, and 
increasing accessibility to infrastructure, knowledge, and information 
systems. Such measures would lead to faster access to and accumulation 
of productive assets (human, physical, natural, and financial) 
controlled by the pastoralists and/or increase returns to those assets. 
Public policy choices to increase incomes and assets of nomads include:

    <bullet> Providing greater security for those assets they already 
possess, e.g., strengthening rights to rangeland and improving or 
preserving adults' health status;
    <bullet> Widening market access by nomads to productive assets, 
including land, labor, and financial services;
    <bullet> Facilitating micro-finance arrangements to promote the 
accumulation of assets;
    <bullet> Providing infrastructure, such as roads, electricity, and 
other local public goods; and
    <bullet> Accelerating the production and transfer of appropriate 
new technology for rangeland and livestock production.

    For nomad children, the priority is to ensure adequate nutrition, 
followed by access to health care and education. The existence of well 
functioning institutions and the efficiency of government expenditure 
directly affect these opportunities.
Facilitate empowerment of nomads
    Empowering nomads to take more charge of the development that is 
affecting them is essential for poverty reduction. Sustainable 
development in the Tibetan pastoral areas should encourage a social, 
legal, and policy framework that enables nomads to more effectively 
influence public decisions that affect them and/or reduce factors that 
hinder their ability to earn a better livelihood. Since development 
activities that affect nomads depend on the interaction of political, 
social, and institutional processes, a poverty reduction strategy 
should ensure that the political environment is conducive to civic 
participation, and that government programs are decentralized and 
transparent. Actions to facilitate empowerment of poor nomads include:

    <bullet> Improving the functioning of institutions to facilitate 
economic growth with equity by reducing bureaucratic and social 
constraints to economic action and upward mobility;
    <bullet> Laying a political, social, and legal basis for inclusive 
development by establishing mechanisms for participatory 
decisionmaking;
    <bullet> Creating, sustaining, and integrating competitive markets 
and related institutions that provide agricultural inputs and outputs;
    <bullet> Reducing social barriers by removing ethnic and gender 
bias and encouraging the representation of nomads in community, 
provincial and national organizations;
    <bullet> Fostering local empowerment and decisionmaking through 
decentralization of administrative, fiscal and political structures;
    <bullet> Strengthening the participation of nomads in public 
service delivery;
    <bullet> Eliminating biased pricing structures and other policies 
that negatively affect herders and the rangeland environment; and
    <bullet> Increasing public expenditures in pastoral areas.

    How can Tibetan nomads be empowered and put more in charge of their 
own future? It is becoming increasingly clear that local-level nomad 
organizations, or pastoral associations, provide a path to empower 
nomads. Pastoral associations are not new to Tibetan nomadic societies 
as traditional grazing management practices often relied on group 
herding arrangements and informal group tenure of rangelands. In many 
areas, vestiges and new variations on traditional pastoral 
organizations exist. However, the legal and regulatory frameworks often 
do not support local-level nomad groups and group tenure arrangements. 
Pastoral associations could help 
facilitate the participation of nomads in the design and implementation 
of development programs, improve the government's understanding of 
pastoral systems, contribute to formulating more appropriate rules for 
rangeland use, and reduce the level of government resources required 
for monitoring rangelands. Pastoral associations could not only provide 
a formal means for nomads to more effectively manage their rangelands, 
but to do a better job of marketing their livestock and livestock 
products as well. Empowering nomads requires a thorough understanding 
of pastoral production systems, knowledge of existing group 
arrangements and the incentive structures that exist for group actions 
and new institutional arrangements. A change in attitudes toward nomads 
and their production systems is also required.
Reduce the vulnerability of the poor nomads
    Poverty entails not just an inability to guarantee basic needs, but 
also a vulnerability to unexpected fluctuations both in future real 
income and access to public services. Nomads throughout the Tibetan 
plateau are exposed to considerable risks that affect their livestock 
production system and their livelihoods. Risks are also associated with 
markets, service delivery, and the very foundations of society and 
polity. Many of these risks are highly localized while others are more 
general. For many nomads, natural disasters in the form of severe 
winter snowstorms poses one of the greatest risks and increases their 
vulnerability to remaining trapped in poverty. To address this problem, 
measures need to be taken to reduce ex ante exposure to risk and 
improve the ex post capacity of the poor to cope with risk. Priority 
actions to reduce ex ante exposure of nomads to risks might include:

    <bullet> Developing early warning systems for droughts and 
snowstorms;
    <bullet> Improving public services, such as roads and health 
clinics;
    <bullet> Producing and transferring appropriate range-livestock 
technology to herders, which improves livestock productivity; and
    <bullet> Improving market accessibility for nomads to sell their 
livestock and livestock products.

    Possible priority actions to improve ex post capacity to cope with 
risks could 
include:

    <bullet> Facilitating livestock restocking programs to replace 
animals lost in the disasters.
Provide exit strategies for poor nomads
    One of the primary goals of a poverty reduction strategy is to 
promote broad-based economic growth that helps the poor climb out of 
poverty, but in some cases in the pastoral areas this goal may be 
difficult to achieve. One reason is that the natural resource base 
cannot support the growing human population. Severe rangeland 
degradation in some areas is already calling into question the 
sustainability of current livestock production practices. In such 
cases, possible exit strategies for tackling poverty could take the 
form of migration of some people out of the most degraded areas and 
establishing social support programs to assist the poor. In some 
pastoral areas, permanent out-migration may be the most cost-effective 
mechanism for reducing poverty.
Effects of policies and the economy on poverty
    Macroeconomic policies and institutional reforms as well as the 
quality of local governance have a profound affect on poverty in 
pastoral areas. This is because they affect the rate of economic 
growth, which is the single most important macroeconomic determinant of 
poverty. They also influence the allocation of government funding and 
shape the type of economic growth. Steady economic growth creates more 
jobs and increases incomes, thus helping to reduce poverty. Growth also 
increases tax revenues, enabling local governments to allocate more to 
health and education, which work indirectly to reduce poverty.
Measuring progress in reducing poverty
    It is important to monitor progress in reducing poverty among 
nomads. Not only is monitoring an effective way to inform others about 
the State of nomads' well being and encourage debate on development 
approaches and priorities, but it also helps promote evidence-based 
policymaking by senior decisionmakers. This allows more feasible 
poverty reduction goals and targets to be determined for the future. 
Monitoring requires selecting poverty indicators and setting poverty 
reduction targets. Poverty indicators should be reliable, quick and 
cheap. It is better to identify a few indicators and measure them well 
rather than measure a number of indicators poorly. Indicators should 
also show the direction of change in tackling poverty. Once indicators 
are chosen, a baseline needs to be established to measure future 
progress.
    A recent World Bank (2001a) report on rural poverty in China 
concludes that the key issue related to poverty reduction is not 
allocating more funding, but the more efficient and effective use of 
available resources. Findings from the study also indicate that both 
the problems and the development opportunities facing the western 
mountain areas have been underestimated, largely because of a lack of 
an appropriate framework to develop local strategies and programs. The 
widespread poverty in Tibetan pastoral areas suggest that efforts 
should be expanded and improved to ensure that the broader gains of 
economic and rural growth in the country are more widely shared among 
the poor, nomadic Tibetan population.

                           FUTURE CHALLENGES

    The Government of China has placed high priority on the sustainable 
development of the pastoral areas in western China, including the 
Tibetan areas. This is evident in the Western Development Strategy 
which emphasizes two main objectives: (1) to reduce economic 
disparities between the western and other regions; and (2) to ensure 
sustainable natural resources management. In addition, while 
sustainable growth in agriculture and ensuring food security was one of 
the five key areas of China's development strategy articulated in the 
Ninth Five Year Plan, in the 10th Five Year Plan, there has been a 
noticeable shift in the focus away from increased quantities of 
agricultural products toward improved quality and more ecologically 
sound types of production. Thus, China appears committed to address 
rangeland degradation and poverty in the pastoral regions. However, it 
is confronting major difficulties in dealing with the simultaneous 
short and long-term tradeoffs, such as improving the welfare of people 
living in pastoral areas and protecting and maintaining the numerous 
economic and environmental benefits provided by rangeland ecosystems.
    A critical crisis is emerging as China attempts to transform the 
traditional Tibetan nomadic pastoral system to one more oriented toward 
a market economy. Livestock development has been promoted through the 
privatization of herds and rangeland, intensive grazing management 
strategies with the construction of fences, and introduction of rain-
fed farming techniques for growing forage. Many of these interventions 
have been responses to political or economic objectives and while they 
have improved the delivery of social services, in many instances, they 
have conflicted with the goal of maintaining rangeland health and 
stability. Programs to settle nomads, to divide and allocate the 
rangeland to individual herders, and to fence the rangeland 
fundamentally alter the mobile nature of Tibetan nomadic pastoralism 
and jeopardize many worth aspects of the indigenous pastoral systems. 
These attempts to foster sedentary livestock production systems have a 
high probability of destroying the highly developed pastoral system 
that has existed for centuries on the Tibetan plateau. Both the 
rangeland environment and the nomadic pastoral culture are under threat 
in areas where the culture of mobile pastoralism has been eliminated or 
substantially reduced.
    Stimulating agricultural growth, reducing poverty and managing the 
environment are monumental tasks in the Tibetan pastoral areas of 
Western China. In these grazingland landscapes, complex interactive 
issues related to the environment, technology, policies, and human 
population growth greatly hamper development. There is a vicious cycle 
of increasing human populations leading to pressure to convert 
rangelands to cropland and to increase livestock stocking rates to 
maintain rural incomes. This leads to rangeland degradation, reducing 
the capacity of the pastoral areas to support livestock and the human 
populations that rely on them. Rangeland degradation is an increasing 
problem in many areas, calling into question their 
sustainability under current use. Furthermore, much of the economic 
growth and inappropriate development policies have contributed to 
unsustainable use of natural resources and degradation of the 
environment. Given the seriousness of the problems related to livestock 
production in the pastoral areas, new approaches that better integrate 
livestock production with improved range management, more efficient 
marketing of livestock and livestock products, a focus on poverty 
reduction, and pastoral risk management are warranted.
    Poverty alleviation experience internationally, and elsewhere in 
China, demonstrates the benefits of adopting an integrated approach to 
tackling poverty--an approach that involves social and economic 
development as well as environmental management. Investments in 
education and health can greatly foster long-term 
sustainable development in pastoral areas. For Tibetan nomads, the 
challenge is determining how to target funding better and to ensure 
that resources allocated for poverty alleviation actually reaches the 
poorest sectors and families in the pastoral areas.
    Despite their extent and importance, the Tibetan pastoral area has 
received limited attention from range ecologists and nomadic pastoral 
specialists. The lack of information limits the proper management and 
development of the pastoral area. Rangeland ecosystem dynamics are 
still poorly understood and scientific data on ecological processes are 
limited. Many questions concerning how rangeland vegetation functions 
and the effect of grazing animals on the pastoral system remain 
unanswered for the most part. There is a great need for more in-depth 
analysis of the relationship between herbivores and the vegetation 
resource and the relationship between domestic livestock and wild 
herbivores in the pastoral areas.
    The poor perception of the rangeland environment and traditional 
Tibetan livestock and grazing management systems, along with the 
limited support for pastoral development and rangeland resource 
management, needs to be counterbalanced by fresh perspectives and new 
information regarding rangeland ecosystem dynamics and pastoral 
development. It is becoming increasingly apparent that many of the 
existing paradigms for explaining the dynamics of rangeland ecosystems 
have not captured the vigorous nature of the rangeland ecosystems of 
the Tibetan plateau and, therefore, traditional measures for range 
conditions and carrying capacities may not be effective gauges for 
management. Emerging research findings on the dynamics of semi-arid 
rangelands, indicate that non-equilibrium models for describing 
pastoral system dynamics and state-and-transition models for explaining 
vegetation succession are valuable concepts (Ellis and Swift 1988, 
Westoby et al. 1989, Laycock 1991, Fernandez-Gimenez and Allen--Diaz 
1999). These fresh perspectives and concepts provide new frameworks for 
rangeland monitoring and offer promise for improved analyses of 
rangeland ecosystems on the Tibetan plateau. They also suggest new 
possibilities for innovative approaches to designing improved, and more 
sustainable, rangeland management and pastoral development.
    The socio-economic dimensions of Tibetan pastoralism are also not 
well known (Clarke 1992, Goldstein and Beall 1989, Levine 1998, Miller 
1999). Greater efforts need to be directed toward developing a better 
understanding of current nomadic pastoral production systems and how 
they are changing and adapting to development influences. Practices 
vary considerably across the pastoral area and these differences need 
to be analyzed. Why do nomads in different areas maintain different 
livestock herd compositions? What are current livestock offtake rates 
and how do increasing demands for livestock products in the marketplace 
affect future livestock sales? What constraints and opportunities for 
improving livestock productivity are recognized by nomads themselves? 
What forms of social organization exist for managing livestock and 
rangelands. How have these practices changed in recent years and what 
are the implications of these transformations? Answers to these, and 
related questions, will help unravel many of the complexities of 
current pastoral production systems on the Tibetan plateau, of which we 
still know so little about.
    Although there is much in common across the Tibetan pastoral areas 
there are also striking regional differences that need to be addressed 
at local community levels. This calls for strengthened community 
participation and the development of sustainable participatory 
mechanisms for community-based rangeland resource management. Improved 
analyses of the socioeconomic processes at work in Tibetan pastoral 
areas are urgently required (Box 2). It will also be important to 
determine which aspects of indigenous knowledge systems and traditional 
pastoral production strategies can be built upon and used in the design 
of new rural development interventions for tackling poverty and 
managing rangeland resources.

        Box 2. The Role of Social Scientists in Pastoral Development on 
        the Tibetan Plateau

          Ecological environments are constructed and transformed by 
        complex and reciprocal interactions between human populations, 
        animal populations, and the physical forces of nature that 
        occur across local, regional, and global scales. At any scale 
        of analysis, these interactions are understood only 
        incompletely, and the great variety of perspectives across many 
        disciplines are all instrumental in the effort to promote human 
        understanding of socially defined environmental problems. 
        Anthropologists can contribute substantially to the effort by 
        situating human decisionmaking behaviors within specific 
        communities of known individuals to observe how practices of 
        local resource management are both constrained and enabled by 
        powerful social forces that are not necessarily obvious or 
        material. The attempt to broaden the interpretive framework for 
        understanding human-environment relationships in this way 
        should be welcomed by all.
        Source: Williams (2002: 202).

    In addressing poverty and implementing pastoral development in the 
Tibetan pastoral area, one is faced with problems of two production 
systems (Dyson-Hudson and Dyson-Hudson 1991). On the one hand, there is 
the traditional pastoral production system, which can be seen as an 
evolutionary response to environmental pressure; it is a pattern for 
survival that has proved successful insofar as Tibetan nomads continue 
to exist. On the other hand, there is also another system, which is a 
new pattern for survival (and increased livestock production), based on 
the technical rationale brought in from the outside but not yet 
adjusted to social factors and subjected to the test of time; its 
technical innovations are promoted by development projects and 
technical specialists. It is in dealing with problems which relate to 
the entire pastoral system, including the interaction of new and old 
strategies, that require much more careful analysis when planning 
pastoral development.
    Policies and development strategies for the Tibetan pastoral areas 
need to consider the ecological constraints inherent in the arid and 
semi-arid ecosystems, the interests and aspirations of the local 
pastoral population, and alternative methods of meeting social 
objectives for the pastoral areas. Sustainable development of the 
pastoral areas also needs to recognize the significance of nomads' 
indigenous knowledge of the environment and management of rangeland 
resources. Range and livestock development can no longer ignore local 
circumstances, local technologies, and local knowledge systems (Miller 
2002, Wu 1998). Traditional pastoral production practices have been 
tried and tested. In many cases, they are still very effective and are 
based on preserving and building on the patterns and processes of the 
rangeland ecosystem (Box 3).

        Box 3. Tibetan Nomads' Indigenous Knowledge Systems

          Over hundreds of years, Tibetan nomads acquired intricate 
        ecological knowledge about the rangeland ecosystems in which 
        they live and upon which their livestock production economies 
        depend. Nomads' husbandry of land, water, plant, and livestock 
        resources and their strategies are highly skilled, complex and 
        organized, reflecting generations of acute observation, 
        experimentation, and adaptation to a harsh environment. Local 
        climatic patterns and key grazing areas were recognized, 
        allowing nomads to select favorable winter ranges that provided 
        protection from storms and sufficient forage to bring animals 
        through stressful times. Forage plants were identified that had 
        special nutritive value. Other plant species were known for 
        their medicinal properties or as plants to be avoided since 
        they were poisonous. A wide diversity of livestock and grazing 
        management techniques were employed which enabled nomads to 
        maintain the natural balance of the land upon which they were 
        dependent. For example, nomads usually raise a mix of livestock 
        species; each species has its own specific characteristics and 
        adaptations to the environment. This multi-species grazing 
        system maximizes the use of rangeland vegetation. Maintaining 
        mixed species herds is also a risk management strategy employed 
        by nomads to minimize loss from disease or harsh winters.
          The organization of traditional Tibetan nomadic pastoralism, 
        which emphasized multi-species herds, complex herd structures, 
        regular movements of livestock, and linkages with agricultural 
        communities developed as a rational response to the 
        unpredictability of the rangeland ecosystem. Complex forms of 
        social organization within nomadic pastoral societies also 
        developed that aided allocation of rangeland resources and, 
        through trade networks with other societies secured goods not 
        available within the pastoral systems. Pastoralism evolved 
        through long-term adaptation and persistence in a harsh 
        environment and the grazing and livestock management systems 
        that developed were rational responses by herders to the 
        resources and risks of an inhospitable environment. Nomads 
        mitigated environmental risks through strategies that enhanced 
        diversity, flexibility, linkages to support networks, and self-
        sufficiency. Diversity is crucial to pastoral survival. Nomads 
        keep a diverse mix of livestock in terms of species and class; 
        they use a diverse mosaic of grazing sites, exploiting seasonal 
        and annual variability in forage resources; and they maintain a 
        diverse mix of goals for livestock production. The 
        organizational flexibility of traditional nomadic 
        pastoralism, which emphasized mobility of the multi-species 
        herds, was a fundamental reason for Tibetan nomads' success on 
        the Tibetan plateau.
          The expanded appreciation for the complexity and ecological 
        and economic efficacy of Tibetan pastoral production systems is 
        encouraging. It provides hope that the vast indigenous 
        knowledge nomads possess will be better understood and used in 
        designing new interventions. Greater awareness of the need to 
        understand existing pastoral systems should also help ensure 
        that the goals and needs of nomads are incorporated into new 
        programs and that nomads become active participants in the 
        development process. Pastoral development programs must involve 
        nomads themselves in the initial design of interventions. 
        Tibetan nomads' needs and desires must be heard and the vast 
        body of indigenous knowledge they possess about rangeland 
        resources must be put to use when designing new range-livestock 
        development projects. An important message for pastoral 
        policymakers and planners is the need for active participation 
        by the nomads in all aspects of the development process and for 
        empowered nomads to manage their own development.

    Given the generally poor experience with settling nomads in other 
pastoral areas of the world, it will be interesting to watch the 
attempts to foster more sedentary livestock production systems on the 
Tibetan plateau. What effects will the privatization of rangelands have 
on rangeland condition? Will nomads overgraze pastures that they view 
as their own property now? What effect will private rangeland and 
fences have on traditional mechanisms for pooling livestock into group 
herds and group herding? What kinds of rangeland monitoring programs 
are needed to look after the privatized rangeland? These will be 
important questions to seek answers to in the future.
    China needs to re-orient its policy objectives for the rangelands 
and pastoral areas, not only in terms of range management and livestock 
production, but also in the management of rural development itself. The 
traditional approach of maximizing agricultural output is no longer 
relevant to current circumstances in China. The need now is for 
ecologically and economically sustainable development of the pastoral 
regions, neither of which is consistent with output maximization (World 
Bank 2001b). Policies and development strategies for the Tibetan 
pastoral area should be based on much better consideration of 
ecological constraints, the interests and aspirations of the Tibetan 
nomads themselves, and alternative methods of meeting social 
objectives.
    The challenge for the future is to balance the diverse cultural, 
social and economic needs of Tibetan nomads with the need to maintain 
the rangeland resources and conserve the biodiversity and cultural 
heritage of the Tibetan pastoral landscape. Because of the importance 
to the nation and the international community, China needs to do a much 
better job of managing the Tibetan pastoral region for cultural, 
social, economic, and ecological sustainability and diversity. Although 
there is much in common across the pastoral areas there are also 
striking regional differences that need to be addressed at local 
community levels. This calls for strengthened community participation 
and the development of sustainable participatory mechanisms for 
community-based rangeland resource management.
    Participation by local people in the planning and implementation of 
pastoral development programs in Tibetan pastoral areas remains weak. A 
top-down approach still prevails, stemming from the attitude that the 
government knows best what is good for herders. Frequently, inadequate 
consultation with nomads, bureaucracy, poor understanding of local 
needs and constraints impede nomads from participating in decisions and 
render development programs ineffective and unsustainable. In the 
Tibetan pastoral areas, the varied social and cultural differences of 
the different nomad groups is a strong argument for pursuing 
participatory approaches in order to enable access and more equitable 
distribution of potential development benefits. Reducing poverty among 
pastoralists is also going to require increased attention to women and 
their role in range-livestock development (Box 4).
    In summary, sustainable pastoral development in Tibetan pastoral 
will require: (1) greater concern about the welfare of the nomads; (2) 
increased concern about rangeland degradation and ecosystem processes; 
and (3) the political will to address the problems. Concern and 
political will, however, are not enough. There also has to be improved 
human resource capability to design and implement suitable policies and 
actions. Lack of capacity at the local level is one of the main 
constraints to more sustainable pastoral development and rangeland 
management in Tibetan pastoral areas. It will be necessary, therefore, 
to foster an enabling environment for local-level capacity building 
among Tibetan nomads. This must take into account the local variability 
and site-specific conditions related to climate, soils, ecology, 
livestock production, and socio-economic factors (Oygard et al. 1999).

        Box 4. Nomad Women and Their Role in Poverty Reduction

          Throughout the Tibetan pastoral area, women play a very 
        important role in the pastoral economy. Since they bear and 
        rear children, women directly influence future human resources. 
        As managers of the household and tent, pastoral women make 
        vital decisions about the use of natural resources (e.g., fuel, 
        water). As herders, women are responsible for many of the 
        activities regarding livestock production. Their decisions and 
        actions have effects on rangeland resources and livestock. 
        Efforts to improve livestock productivity, conserve and manage 
        rangeland resources, reduce population growth, and improve 
        pastoral peoples' livelihoods will, therefore, have to focus on 
        pastoral women. These efforts will have to try and reduce 
        women's time constraints; remove barriers to women's access to 
        credit and extension advice; introduce technologies usable by 
        and beneficial to women; and improve women's educational 
        levels. Women are key actors in the sustainable development of 
        the pastoral areas. The government, donors, researchers, and 
        pastoral specialists need to better acknowledge pastoral 
        women's critical roles.
                               conclusion
    The challenges facing pastoral production, environmental 
conservation and sustainable development in Tibetan pastoral areas are 
considerable. Opportunities do exist, however, for improving the 
management of rangeland resources, increasing livestock productivity, 
and bettering the livelihoods of the pastoral population. Programs 
stressing multiple use, participatory development, sustainability, 
economics, and biodiversity could be realized through complementary 
activities in range resource management, livestock production, and 
wildlife conservation. Implementing such programs requires a better 
understanding of the rangeland ecosystem, greater appreciation for 
nomads and their way of life, and consideration of new information and 
ideas emerging about nomadic pastoral systems, rangeland ecology, and 
rural development and poverty reduction.
    Livestock production on the Tibetan plateau can be sustainable 
because rangeland ecosystems can tolerate the disturbance caused by 
livestock grazing. Much of the rangeland of the plateau is surprisingly 
resilient to livestock grazing; overgrazed rangeland can recover from 
livestock grazing naturally as long as the disturbance is not too 
great. Ecological processes that sustain rangeland for livestock also 
support wildlife, biodiversity, and other natural resource functions.
    Sustainable pastoral development in Tibetan pastoral areas depends 
heavily on the local-level users of the rangeland resources; the 
Tibetan nomads. It is at this level that rangeland resource use 
decisions are made on a daily basis. It is also at this local level 
that awareness, incentives and institutional and infrastructure 
conditions must be appropriate in order to secure sustainable rangeland 
management and poverty reduction (Oygard et al. 1999).
    In the past, policies for developing the pastoral areas emphasized 
economic growth at almost any cost with insufficient attention paid to 
promoting efficiency and rangeland ecosystem sustainability. In recent 
years, rehabilitation of degraded rangelands has become an important 
feature of national programs, but the focus is almost entirely on 
investment in ``technical fixes'' and/or ``quick fixes'' with little 
attention paid to the underlying social and administrative issues which 
are often at the heart of the rangeland degradation and poverty 
problem. Development strategies for the Tibetan pastoral areas need to 
adopt an integrated ecosystem approach that views livestock production 
as just one important aspect of an overall rural development and 
poverty reduction strategy.
    For the Tibetan pastoral areas, the development approach needs to 
move from a focus of sustaining livestock outputs from the rangelands 
to one of sustaining ecological processes and a wide variety of goods, 
services, conditions and values. Ecological sustainability requires 
maintaining the composition, structure and processes of the rangeland 
ecosystems. The concept of ecological sustainability provides a 
foundation upon which the management of the rangelands can contribute 
to goals of economic and social sustainability.
    There are no simple solutions to addressing poverty among Tibetan 
nomads. Due to the multifaceted dimensions of the problems, actions 
will need to be taken on several levels: at the central policy level; 
at the university and research center level; at the level of range and 
livestock extension services; and at the herder level. Promoting more 
sustainable pastoral development in the Tibetan pastoral area will 
require policies and approaches that integrate ecological principles 
regulating rangeland ecosystem functions with the economic principles 
governing livestock production and general economic development 
processes.

                               REFERENCES

Cincotta, R., Y. Zhang and X. Zhou. 1992. Transhuman alpine pastoralism 
    in Northeastern Qinghai Province: An evaluation of livestock 
    population response during China's agrarian economic reform. 
    Nomadic Peoples: 30: 3-25.
Ciwang, D. 2000. The status and harnessing of the grassland ecological 
    environment in Naqu, Tibetan Autonomous Region, pp. 106-112. In: Z. 
    Lu and J. Springer (eds.) Tibet's Biodiversity: Conservation and 
    Management. China Forestry Publishing House, Beijing.
Clarke, G. 1998. Socio-economic change and the environment in a 
    pastoral area of Lhasa Municipality, Tibet, pp.1-46. In: G. Clarke 
    (ed.) Development, Society and Environment in Tibet. Papers 
    presented at a Panel of the 7th International Association of 
    Tibetan Studies, Graz, 1995. Verlag de Osterreichischen, Wien.
Dyson-Hudson, N. and R. Dyson-Hudson. 1991. Pastoral production systems 
    and livestock development projects : An East African perspective, 
    pp. 219-255. In : M. Cernea (ed.) Putting People First : 
    Sociological Variables in Rural Development. World Bank, 
    Washington, DC.
Ekvall, R. 1974. Tibetan nomadic pastoralists: Environment, personality 
    and ethos. Proceedings of the American Philosophical Society, 
    113(6): 519-537.
--. 1968. Fields on the Hoof: The Nexus of Tibetan Nomadic Pastoralism. 
    Holt, Rinehart and Winston, New York.
Ellis, J. and D. Swift. 1988. Stability of African pastoral systems: 
    Alternate paradigms and implications for development. Journal of 
    Range Management, 41: 450-459.
Fernandez-Gimenez, M. and B. Allen-Diaz. 1999. Testing a non-
    equilibrium model of rangeland vegetation dynamics in Mongolia. 
    Journal of Applied Ecology 36: 871-885.
Foggin, M. and A. Smith. 2000. Rangeland utilization and biodiversity 
    on the alpine grasslands of Qinghai Province, pp. 120-130. In: Z. 
    Lu and J. Springer (eds.) Tibet's Biodiversity: Conservation and 
    Management. China Forestry Publishing House, Beijing.
Gelek. 1998. The Washu Serthar: A nomadic community of eastern Tibet, 
    pp. 47-58. In: G. Clarke (ed.) Development, Society and Environment 
    in Tibet. Papers presented at a Panel of the 7th International 
    Association of Tibetan Studies, Graz, 1995. Verlag de 
    Osterreichischen, Wien.
Goldstein, M. and C. Beall. 1989. The impact of China's reform policy 
    on the nomads of Western Tibet. Asian Survey, 24(6): 619-641.
--. 1991. Change and continuity in nomadic pastoralism on the Western 
    Tibetan Plateau. Nomadic Peoples 28: 105-122.
--. 1990. Nomads of Western Tibet: Survival of a Way of Life. Oydessy, 
    Hong Kong.
Goldstein, M., C. Beall, and R. Cincotta. 1990. Traditional nomadic 
    pastoralism and ecological conservation on Tibet's Northern 
    Plateau. National Geographic Research 6(2): 139-156.
Laycock, W.A. 1991. State states and thresholds of range condition on 
    North American rangelands: A viewpoint. J. Range Manage. 44(5): 
    427-433.
Levine, N. 1998. From nomads to ranchers: Managing pasture among ethnic 
    Tibetans in Sichuan, pp. 69-76. In: G. Clarke (ed.) Development, 
    Society and Environment in Tibet. Papers presented at a Panel of 
    the 7th International Association of Tibetan Studies, Graz, 1995. 
    Verlag de Osterreichischen, Wien.
--. 1999. Cattle and the cash economy: Responses to change among 
    Tibetan pastoralists in Sichuan, China. Human Organization, 58(2): 
    161-172.
Ling, H. 2000. Status of grassland degradation in the major grazing 
    areas of Tibet and measures of recovery, pp. 101-105. In: Z. Lu and 
    J. Springer (eds.) Tibet's Biodiversity: Conservation and 
    Management. China Forestry Publishing House, Beijing.
Liu, S., L. Zhou, C. Qiu, J. Zhang, Y. Fang and W. Gao. 1999. Studies 
    on Grassland Degradation and Desertification of Naqu Prefecture in 
    Tibet Autonomous Region. (In Chinese). Tibet People's Press, Lhasa.
Liu, Z. and W. Zhao. 2001. Shifting-sand control in Central Tibet. 
    Ambio 30(6): 376-380.
Longworth, J. and G. Williamson. 1993. China's Pastoral Region: Sheep 
    and Wool, Minority Nationalities, Rangeland Degradation and 
    Sustainable Development. CAB International, Wallingford.
Manderscheid, A. 2001a. The black tent in its easternmost distribution: 
    The case of the Tibetan Plateau. Mountain Research and Development 
    21(2): 154-160.
--. 2001b. Decline and reemergence of nomadism: Tibetan pastoralists 
    revive a nomadic way of life and production. GeoJournal 53: 173-
    182.
Miller, D. 1998a. Fields of Grass: Portraits of the Pastoral Landscape 
    and Nomads of the Tibetan Plateau and Himalayas. ICIMOD, Kathmandu
--. 1998b. Tibetan pastoralism: Hard times on the plateau. Chinabrief, 
    1(2): 17-22.
--. 1999a. Nomads of the Tibetan Plateau rangelands in Western China, 
    Part Three: Pastoral Development and Future Challenges. Rangelands, 
    21(2): 17-20.
--. 1999b. Nomads of Tibetan rangelands in Western China, Part Two: 
    Pastoral Production. Rangelands
--. 2000. Tough times for Tibetan nomads in Western China: Snowstorms, 
    settling down, fences, and the demise of traditional nomadic 
    pastoralism. Nomadic Peoples 4(1): 83-109.
--. 2002a. Homes on the range: The end of Tibetan nomadic pastoralism 
    or a base for sustainable development on the Tibetan Plateau?, pp. 
    260-268. In: T. Chuluun and D. Ojima (eds.) Fundamental Issues 
    Affecting Sustainability of the Mongolian Steppe. IISNC, 
    Ulaanbaatar.
--. 2002b. The importance of China's nomads. Rangelands, 24(1): 22-24.
National Resource Council. 1992. Grasslands and Grassland Sciences in 
    Northern China. National Academy Press, Washington, D.C.
Nyberg, A. and S. Rozelle. 1999. Accelerating China's Rural 
    Transformation. The World Bank, Washington, DC.
Oygard, R., T. Vedeld and J. Aune. 1999. Good Practices in Dryland 
    Management. World Bank, Washington, DC.
Richard, C. 2000. Rangeland policies in the Eastern Tibetan Plateau. 
    Issues in Mountain Development 2000/4. ICIMOD, Kathmandu.
Schaller, G. 1999. Wildlife of the Tibetan Steppe. University of 
    Chicago Press, Chicago.
Sheehy, D. 2000. Range Resource Management Planning on the Qinghai-
    Tibetan Plateau. Unpublished report prepared for the Qinghai 
    Livestock Development Project. ALA/CHN/9344. EU Project, Xining, 
    Qinghai Province, China.
Smith, A. and M. Foggin. 2000. The plateau pika is a keystone species 
    for biodiversity on the Tibetan Plateau, pp. 131-140. In: Lu, Z. 
    and J. Springer (eds.) Tibet's Biodiversity: Conservation and 
    Management. China Forestry Publishing House, Beijing.
Sneath, D. 1998. State policy and pasture degradation in Inner Asia. 
    Science 281: 1147-1148.
Westoby, M., B. Walker and I. Noy-Meir. 1989. Range management on the 
    basis of a model which does not seek to establish equilibrium. J. 
    Arid Environ. 17: 235-239.
Williams, D. 2002. Beyond Great Walls: Environment, Identity, and 
    Development on the Chinese Grasslands of Inner Mongolia. Stanford 
    University Press, Stanford.
World Bank. 2001a. China: Overcoming Rural Poverty. World Bank, 
    Washington, DC.
World Bank. 2001b. China, Air, Land, and Water: Environmental 
    Priorities for a New Millennium. World Bank, Washington, DC.
Wu, N. 1997. Ecological Situation of High-Frigid Rangeland and Its 
    Sustainability: A Case Study of the Constraints and Approaches in 
    Pastoral Western Sichuan, China. Dietrich Reimer Verlag, Berlin.
--. 1998. Indigenous knowledge of yak breeding and crossbreeding among 
    nomads in western Sichuan, China. Indigenous Knowledge and 
    Development Monitor 1(6):7-9.
Wu, N. and C. Richard. 1999. The privatization process of rangeland and 
    its impacts on the pastoral dynamics in the Hindu-Kush Himalaya: 
    the case of western Sichuan, pp. 14-21. In: D. Eldridge and D. 
    Freudenberger (eds.) People and Rangelands: Building the Future, 
    Proceedings of the VIth International Rangeland Congress, July 19-
    23, 1999, Townsville, Australia. VI International Rangeland 
    Congress, Inc., Aitkenvale, Australia.
Yan Zhaoli and Luo Guangrong. 2000. The pastoral production system in 
    Hongyuan, Eastern Qinghai-Tibet Plateau. In: Proceedings of the 
    Third International Congress on Yak, 4-9 September 2000, Lhasa, 
    Tibet, PR China.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

</pre></body></html>
